<html>
<title> - INTEGRATED PLANNING AND PERMITTING: AN OPPORTUNITY FOR EPA TO PROVIDE COMMUNITIES WITH FLEXIBILITY TO MAKE SMART INVESTMENTS IN WATER QUALITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  INTEGRATED PLANNING AND PERMITTING:
                   AN OPPORTUNITY FOR EPA TO PROVIDE
                  COMMUNITIES WITH FLEXIBILITY TO MAKE
                   SMART INVESTMENTS IN WATER QUALITY

=======================================================================

                                (112-68)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                              __________


                        U.S. GOVERNMENT PRINTING OFFICE
71-739 PDF                    WASHINGTON: 2012
________________________________________________________________________
                For sale by the Superintendent of Documents, 
U.S. Government Printing Office, http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government 
Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d3a2d321d3e282e293538312d733e323073">[email&#160;protected]</a>  







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)




            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY
                               Panel One

Hon. Jim Suttle, Mayor, City of Omaha, testifying on behalf of 
  the U.S. Conference of Mayors..................................    24
Hon. Joe Reardon, Mayor/CEO, Unified Government of Kansas City, 
  Kansas, and Wyandotte County, testifying on behalf of the 
  National League of Cities......................................    24
Todd Portune, Commissioner, Hamilton County, Ohio, Board of 
  Commissioners..................................................    24
Walter L. Baker, P.E., Director, Division of Water Quality, Utah 
  Department of Environmental Quality, testifying on behalf of 
  the Association of Clean Water Administrators..................    24
Carter H. Strickland, Jr., Commissioner, New York City Department 
  of Environmental Protection....................................    24
David Williams, Director of Wastewater, East Bay Municipal 
  Utility District, testifying on behalf of the National 
  Association of Clean Water Agencies............................    24
Katherine Baer, Senior Director, Clean Water Program, American 
  Rivers.........................................................    24

                               Panel Two

Nancy K. Stoner, Acting Assistant Administrator, Office of Water, 
  United States Environmental Protection Agency..................   125
Cynthia Giles, Assistant Administrator, Office of Enforcement and 
  Compliance Assurance, United States Environmental Protection 
  Agency.........................................................   125

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Jason Altmire, of Pennsylvania..............................   136
Hon. Gerald E. Connolly, of Virginia.............................   138
Hon. Eddie Bernice Johnson, of Texas.............................   139

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Jim Suttle..................................................   141
Hon. Joe Reardon.................................................   170
Todd Portune.....................................................   188
Walter L. Baker, P.E.............................................   192
Carter H. Strickland, Jr.........................................   198
David Williams...................................................   201
Katherine Baer...................................................   207
Nancy K. Stoner..................................................   212
Cynthia Giles \1\................................................

                       SUBMISSIONS FOR THE RECORD

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, request to submit the report entitled, 
  ``Water Use Efficiency and Jobs,'' prepared by the Economic 
  Roundtable, 2011...............................................     7
Hon. Timothy H. Bishop, a Representative in Congress from the 
  State of New York, request to submit H.R. 3145, a Bill to amend 
  the Federal Water Pollution Control Act to authorize 
  appropriations for State water pollution control revolving 
  funds, and for other purposes..................................    53
United States Environmental Protection Agency, responses to 
  questions from Hon. Timothy H. Bishop, a Representative in 
  Congress from the State of New York............................   218

                         ADDITION TO THE RECORD

Diane Linderman, P.E., PWLF, President, American Public Works 
  Association, written statement.................................   220

----------
\1\ Cynthia Giles did not submit a written statement.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                  INTEGRATED PLANNING AND PERMITTING:



                   AN OPPORTUNITY FOR EPA TO PROVIDE



                  COMMUNITIES WITH FLEXIBILITY TO MAKE



                   SMART INVESTMENTS IN WATER QUALITY

                              ----------                              


                      WEDNESDAY, DECEMBER 14, 2011

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The committee of water resource and environment 
will convene. And welcome, everybody. Today we are going to 
have two panels, and we will get to our first panel here in 
just a few minutes. And we have a second panel from the EPA 
officials.
    I will start off here with my opening statement. First of 
all, again, I would like to welcome everyone to the hearing 
today on the ``Integrated Planning and Permitting: An 
Opportunity for EPA to Provide Communities with Flexibility to 
Make Smart Investments in Water Quality.''
    It is well known that the needs of municipalities to 
address wastewater infrastructure are substantial. Our existing 
national wastewater infrastructure is aging, deteriorating, and 
in need of repair, replacement, and upgrading. Old and 
deteriorated infrastructure often leak, have blockages, and 
fail to adequately treat pollutants in wastewater.
    There are well over 700 cities and towns around the Nation 
with combined sewer systems which periodically experience 
combined sewer overflows during wet weather conditions. Many 
more communities have problems with sanitary sewer overflows, 
where untreated wastewater can get released into the 
environment or into people's homes.
    In recent years, EPA has stepped up enforcement actions 
against many municipalities in an effort to force them to 
eliminate their CSOs and SSOs. These enforcement actions have 
resulted in many larger cities and smaller municipalities 
entering into enforcement settlements by signing consent 
decrees with the EPA or States to implement enforceable plans 
to eliminate combined sewer overflows and sanitary sewer 
overflows. Many of these settlements are costly to implement, 
especially in the face of dwindling EPA infrastructure funds.
    Many States could end up spending as much as $1 billion to 
$5 billion each, or even more in some instances, to implement 
the terms of many of these settlements. But it doesn't stop 
there. In recent years, numerous other regulatory issues also 
have become national priorities, and are placing additional 
burdens on municipalities.
    For example, many of our Nation's wastewater utilities are 
being forced to install extremely expensive, advanced waste 
treatment to remove to next increment of pollutants. In 
addition, EPA has initiated a controversial national rulemaking 
to establish a potentially far-reaching, burdensome, and costly 
program to regulate stormwater discharges. This could lead to 
communities facing the prospect of substantially increased cost 
for controlling pollutants from stormwater runoff.
    Further, EPA has been pressing the States and local 
governments to adopt a new framework for managing nutrient 
pollutions. This includes strict numerical nutrient standards, 
the tough total maximum daily load reduction goals, and 
stringent nutrient effluent limits for many municipal 
dischargers. This will force many municipalities to install and 
operate extremely expensive nutrient treatment and removal 
technologies at their wastewater treatment plants.
    Moreover, many communities face increasingly regulatory 
burdens under the Safe Drinking Water Act for their public 
drinking water systems. All these initiatives are adding 
additional layers of regulatory requirement and economic 
burdens that our communities are having to somehow deal with. 
Unfortunately, each of these EPA regulatory programs are being 
managed in a stovepipe or silo approach, with each program 
imposing on--its own requirements on communities, without 
regard to what any of the other programs are doing. And EPA has 
been exhibiting an attitude with respect to their regulatory 
requirements that everything is a priority.
    Many of the Federal regulatory mandates imposed on 
communities reflect a one-size-fits-all approach that does not 
account for individual municipality-specific public health and 
other needs, and requires the completion of massive capital 
investments on tight schedules. Many of our communities' 
construction dollars are not being dedicated to the projects 
they need in order to protect public health and the environment 
most cost effectively.
    A large portion of these Federal, not to mention State, 
regulatory mandates are being unfunded by the Federal and State 
governments. Rather, local governments are being forced to pay 
for more and more of the cost of these mandates with the result 
that local communities and rate payers are increasingly getting 
economically tapped out. Regulators need to realize that their 
unfunded mandates do not just impact local governments, but 
hurt the economically struggling citizens of those communities 
who face increased user rates or taxes they can ill afford.
    As a result of many communities becoming financial 
squeezed, representatives of local government are increasingly 
voicing concerns over EPA's policies and unfunded mandates, 
including the cumulative impacts of multiple layers of 
regulatory requirements being imposed on them and over how EPA 
is dealing with communities to address the regulatory mandates 
that EPA is imposing on them.
    It is time for the national clean water strategy to evolve 
from a one-size-fits-all mandate and enforcement approach to an 
integrated strategy that recognizes the individual public 
health needs and water quality benefits of water and wastewater 
utilities and the resource limitations of communities.
    There may be some cause for optimism that the EPA is 
finally starting to hear municipalities' concerns. I am very 
pleased to hear that the EPA has announced that it plans to 
create a new integrated regulatory planning and permitting 
approach to help EPA regional offices and States and local 
governments in integrating and prioritizing Clean Water Act 
regulatory requirements. Of course, it remains to be seen how 
EPA's proposed initiative will turn out. I guess the devil is 
always in the details.
    I have been hearing some mixed signals coming out of EPA. 
There are some indications that the EPA may not be willing to 
limit its enforcement against municipalities. I am concerned 
that a continued emphasis on enforcement approach, including 
consent decrees, will undermine the flexibility that the EPA is 
ostensibly seeking to provide.
    On the other hand, there seems to be some willingness on 
the part of the Agency to make this a planning and permitting 
approach that would largely take this out of the enforcement 
action realm.
    I want to hear from our EPA witnesses specifically which 
approach it is going to be. And I want to hear from EPA and 
other witnesses what statutory or other impediments, if any, 
stand in the way of making this an effective initiative for 
both communities and the regulators.
    Hopefully, this initiative will truly give our communities 
the flexibility they need to prioritize the water quality 
requirements, and address the huge unfunded costs associated 
with the growing number of mandates stemming from EPA water 
rules and enforcement actions.
    At this time I yield to my ranking member, the Honorable 
Tim Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman, and thank 
you very much for holding this hearing.
    One of the basic tenets of the Clean Water Act is to 
prevent the discharge of raw sewage and pollutants into the 
Nation's waters. Despite the significant progress that has been 
made on this effort since 1972, many cities and communities are 
facing the need to make large wastewater infrastructure 
investments to address ongoing Clean Water Act violations, or 
to address aging wastewater infrastructure repairs and 
replacements. In light of the current fiscal crisis, 
communities are looking to Congress and to the Environmental 
Protection Agency for assistance.
    First and foremost, communities are looking to Congress to 
renew the Federal commitment towards investment in wastewater 
infrastructure, as could be accomplished through the enactment 
of the bipartisan bill H.R. 3145, the Water Quality Protection 
and Job Creation Act of 2011, which I will speak about a bit 
more in a few moments.
    Second, communities are looking to EPA for flexibility to 
continue progress towards improving the Nation's waterways, 
while focusing investment on addressing the most pressing 
health and welfare issues, first. As we will hear today, EPA 
has proposed to draft an integrated planning framework that has 
the potential to dramatically improve water quality over time, 
as well as promote the use of integrated, sustainable, and 
cost-effective approaches to solving decades-old waste and 
stormwater issues.
    I am encouraged by the seriousness of this effort from all 
parties, and look forward to providing any assistance necessary 
in moving this issue forward. The reality, however, is that we 
would be less in need of integrated planning and flexibility if 
we had adequate investment in wastewater infrastructure.
    Communities across the Nation want to do the right thing in 
making the necessary improvements to their wastewater 
infrastructure, and to address ongoing water quality concerns, 
such as combined sewer overflows and other wet weather issues. 
However, these efforts cost money. And in the ongoing fiscal 
situation, money can be a very difficult thing to come by. This 
lack of available resources has prompted communities to seek 
additional flexibility from the EPA to address these concerns.
    To some extent, Congress is partially to blame for the lack 
of sufficient wastewater infrastructure funding. For one reason 
or another, Congress has failed to reauthorize appropriations 
for the Clean Water State Revolving Fund for the past 24 years, 
over two decades. This has not been for lack of trying. Over 
the past few Congresses under both Republican and Democratic 
leadership, this committee has developed legislation to 
increase the level of funding to address ongoing water quality 
needs.
    Mr. Chairman, the American economy also needs jobs. And 
this Congress has a responsibility to support programs that 
create jobs. That is what spending on wastewater infrastructure 
systems will do. And it will, plain and simple, create jobs. 
For every $1 billion we spend on wastewater infrastructure, we 
can create approximately 28,000 jobs in communities across 
America, while improving our public health and the environment. 
It is a win-win proposition.
    The importance of investment in wastewater infrastructure 
is clear, and the need is great. In the 2008 clean water needs 
survey, States documented almost $300 billion in wastewater 
treatment, pipe replacement and repair, and stormwater 
management projects that need to be filled over the next 20 
years. In 2010, Congress appropriated $2.1 billion for 
wastewater infrastructure projects through the clean water SRF. 
However, this number was reduced to $690 million in 2011, and 
could go even lower in the current fiscal year. This is a far 
cry from the $15 billion a year we would need to spend to 
address the needs identified by the States to modernize and 
repair our aging systems.
    In October I joined with my colleagues Ranking Member 
Rahall and Congressmen LaTourette and Petri to introduce the 
bipartisan Water Quality Protection and Jobs Creation Act of 
2011 to partially close this gap. This legislation renews the 
Federal commitment to addressing our Nation's substantial needs 
for wastewater infrastructure by investing $13.8 billion in the 
State Revolving Funds over the next 5 years. H.R. 3145 is 
similar to prior bills reported by this committee, and approved 
by the House by wide bipartisan margins.
    However, the bill also recognizes that significant 
additional resources beyond the traditional clean water SRF may 
also be necessary. To that end, H.R. 3145 establishes two 
complementary new initiatives for the long-term sustainable 
financing of wastewater infrastructure.
    The first is a direct loan and loan guarantee programs 
based, in part, on the Transportation Infrastructure Finance 
and Innovation Act, or TIFIA, and the second, a clean water 
infrastructure trust fund. These funding innovations, when 
implemented in concert, would leverage billions of additional 
dollars to meet local wastewater infrastructure needs, create 
jobs, and protect our public health and environmental quality.
    I am pleased that this bipartisan legislation has broad 
support among groups ranging from local governments, such as 
the National League of Cities, to contractors and labor, such 
as the Associated General Contractors of America and the 
National Construction Alliance, to public works utilities such 
as the National Association of Clean Water Agencies, to name 
just a few. I urge you, Mr. Chairman, to hold a hearing on this 
important bipartisan legislation in the near future.
    With respect to the issue at hand, I applaud the 
professionalism of the dedicated staff at the Environmental 
Protection Agency for hearing the concerns expressed by local 
communities, and for working with States and local governments, 
as well as utilities and environmental groups seeking 
flexibility in addressing ongoing water quality programs in a 
systematic manner. I look forward to hearing more about their 
efforts today.
    And, Mr. Chairman, I thank you. I look forward to this 
hearing, and any comments that any may have on our desire to 
move our wastewater infrastructure bill in this Congress. Thank 
you very much. I yield back.
    Mr. Gibbs. Mr. Cravaack, you have a statement?
    Mr. Cravaack. Thank you, Chairman Gibbs and Ranking Member 
Bishop, for holding this important hearing on integrating the 
EPA's planning and permitting process. These improvements would 
offer communities the opportunity to make smarter investments 
in their wastewater infrastructure.
    I would like to welcome today's witnesses, and I look 
forward to hearing your testimony about the management of our 
country's vital water resources.
    I understand that while a tremendous investment to build 
and maintain--a properly planned and maintained water 
infrastructure and resources provide tremendous value to the 
communities they serve. In these tough economic times, it is 
irresponsible for the EPA to enforce a one-size-fits-all 
approach to enforcing standards.
    Every municipality is different, with its own needs and 
priorities. The EPA should keep in mind the unique situation 
and needs of local communities before committing to action. For 
ideal water resource management and infrastructure, it is 
important to discourage the EPA from enforcing regulations 
without local interaction. The Agency should be working with 
municipalities to determine and implement projects that best 
meet the needs of an affected community.
    I look forward to hearing from you and our witnesses and 
their thoughts on what steps that are needed to create a 
different relationship between the municipalities and the EPA. 
Thank you again, Mr. Chairman, and I look forward to hearing 
our witnesses' testimony. I yield back.
    Mr. Gibbs. Mrs. Napolitano, proceed.
    Mrs. Napolitano. Thank you, Mr. Chairman. And thank you, 
Ranking Member Bishop, for holding this hearing.
    Coming from local government, I have dealt with this issue 
on a firsthand basis. So, clearly, investing in the clean water 
infrastructure does create jobs.
    And Mr. Chairman, I ask unanimous consent to submit for the 
record a recent report by the Economic Roundtable in Los 
Angeles, California, titled ``Water Use Efficiency and Jobs.'' 
This can be found on the Web site www.economicrt.org, entitled 
``Water Use Efficiency and Jobs,'' produced by the Economic 
Roundtable. This is a joint effort by cities, wastewater 
treatment plants, engineers. Everybody got together in 
California.
    Mr. Gibbs. So ordered.
    [The executive summary of the report entitled, ``Water Use 
Efficiency and Jobs'' follows. The complete report can be 
downloaded from the Economic Roundtable's Web site at: http://
www.economicrt.org/summaries/Water_Use_Efficiency_and_ 
Jobs_Study.html.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Napolitano. Thank you, sir. This report highlights the 
following. One million dollars invested in water jobs--water 
projects creates 12 to 16 jobs in our area. The industry 
creates more jobs in southern California than the two leading 
industries in southern California--that is entertainment and 
housing. There is under-employment in the water industry, which 
indicates there is an opportunity for job growth.
    The availability of health and sufficient water resources 
is drastically declining. Droughts have plagued the southeast 
and southwest regions of the country. The Colorado River and 
Missouri River basins are overused and sometimes abused. 
Climate change is diminishing our water resources. Mother 
Nature just hands it out to us.
    And contamination is affecting our water supply. I can tell 
you in southern California they closed the beaches. We have 
such a long coastline that this does affect our wastewater 
treatment plants.
    As the ranking member of water and power subcommittee, we 
have held many hearings on the health of our great rivers and 
waters and lakes. Our Nation's health depends on downstream 
water sources to be clean enough for irrigation and drinking 
water, and could lead to many increases in diseases and 
illnesses. We don't yet know the--where it comes from.
    We must invest in improving our wastewater treatment, 
because it will directly support a clean water supply.
    I do strongly support 3145, the Water Quality Protection 
and Job Creation Act of 2011, and congratulate Ranking Members 
Bishop and Rahall for introducing it. It provides $13.8 billion 
in Clean Water State Revolving Funds over 5 years. Fund is 
desperately needed to address the wastewater treatment 
challenges facing our country. Many areas cannot afford to do 
it, including some Native American areas, Native American 
tribes.
    EPA's most recent clean water needs survey found that the 
States need $300 billion worth of wastewater system repairs 
over the next 20 years. It also incentivizes the use of green 
technologies to reduce energy consumption. Water treatment 
plants have a capacity for solar, wind, biomethane energy 
production. And we must assist in those investment 
opportunities, and also get the private sector to begin to get 
interested in the investment. Incentivize and assist them in 
helping our communities.
    I can tell you that the sanitation district in Los Angeles 
has long been using the recovery of biomethane. They used 
electricity. They now use solar to be able to reconvert it to 
electricity. It will help solve our water quality challenges.
    I think working together, not pointing fingers, but 
actually congratulating EPA, because if it weren't for them we 
would have a much sorrier state of affairs in our health, and I 
trust that we will be hearing a lot more on this, and look 
forward to working cooperatively. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Duncan, you have an opening statement?
    Mr. Duncan. Well, thank you very much, Mr. Chairman. This 
is a very important hearing. And we have made tremendous 
progress in both clean air and clean water areas over the last 
40 years. There are some people and some groups who don't like 
to admit that, and who don't like to admit that we have the 
toughest clean air and clean water laws in the entire world.
    But I do realize--I chaired this subcommittee for 6 years--
I do realize that there is a lot of work that needs to be done 
in cities, and especially some in the northeast, where their 
wastewater and clean water systems are very old.
    But we have got to have a little balance and common sense 
in these areas, and not go ridiculously overboard. And I was 
concerned when I read the--some of the testimony of Mayor 
Reardon from the National League of Cities, and he says in the 
past 3 years the city of Kansas City has had to increase sewer 
fees by 40 percent to meet the--decree requirements that EPA 
and DOJ are proposing. Sewer fees would have to increase 400 
percent in the next 5 years. Four hundred percent? With all due 
respect, our citizens simply can't afford more.
    And then I noticed the testimony of Mr. Portune from 
Hamilton County, Ohio. He said the EPA required--or will 
testify the EPA required total investment is projected to cost 
over $3.1 billion in 2006 dollars, and virtually every penny of 
that comes from our community rate payers. And that is what 
concerns me.
    I have noticed over the years that almost all the 
environmental radicals come from very wealthy or very upper 
income families. And perhaps they can pay whopping increases 
like 400 percent in 5 years. After a 40-percent increase in the 
past 3 years. And those are in years of 2\1/2\- or 3-percent 
inflation.
    We have got to come to our senses on some of this stuff. 
Not only are we going to really harm a lot of poor and lower 
income working people, but then some people who say, ``Well, 
let's let the poor people out of it, let's just put these costs 
on the businesses.'' Well, the businesses then have to raise 
their prices, and that hurts the poor and lower income people.
    So--and this same thing has happened in the city of 
Knoxville. The Knoxville utilities board--the city of 
Knoxville, where I am from, they spent hundreds of millions of 
dollars improving all of their wastewater and clean water 
systems all through the 1990s and early 2000s. Then the EPA 
came in and with a decree that required a 10-year, $530 million 
expenditure on top of all the money that had already been 
spent. And I can tell you in times of weak economies there is 
not many cities that can afford the types of requirements that 
are being expected or demanded.
    And so, that is why I think this hearing is so very, very 
important. And I thank you for calling this hearing.
    Mr. Gibbs. Thank you. At this time I want to welcome our 
first panel. I will introduce our panel.
    At my far left, your far right, is Mayor Jim Suttle, city 
of Omaha. He is testifying on behalf of the U.S. Conference of 
Mayors. Next to him is Mayor Joe Reardon. He is the mayor and 
CEO of the Unified Government of Wyandotte County and Kansas 
City, Kansas. He is testifying on behalf of the National League 
of Cities. Next to him is Mr. Todd Portune. He is the 
commissioner of Hamilton County Board of Commissioners--that is 
Cincinnati area.
    Mr. Walt Baker, director of division of water quality, Utah 
Department of Environmental Quality, testifying on behalf of 
the Association of Clean Water Administrations. Next to him is 
Mr. Carter Strickland, Jr. He is the commissioner, New York 
City Department of Environmental Protection.
    Next to him we have Mr. David Williams, director of 
wastewater, East Bay Municipal Utility District, testifying on 
behalf of the National Association of Clean Water Agencies. It 
doesn't say on my paper, but I know from testimony he is from 
Oakland, California, right?
    Ms. Katherine Baer, senior director of the clean water 
program, American Rivers. Welcome.
    And we will start down at this end with the mayor of the 
city of Omaha.

TESTIMONY OF HON. JIM SUTTLE, MAYOR, CITY OF OMAHA, TESTIFYING 
 ON BEHALF OF THE U.S. CONFERENCE OF MAYORS; HON. JOE REARDON, 
   MAYOR/CEO, UNIFIED GOVERNMENT OF KANSAS CITY, KANSAS, AND 
 WYANDOTTE COUNTY, TESTIFYING ON BEHALF OF THE NATIONAL LEAGUE 
 OF CITIES; TODD PORTUNE, COMMISSIONER, HAMILTON COUNTY, OHIO, 
   BOARD OF COMMISSIONERS; WALTER L. BAKER, P.E., DIRECTOR, 
  DIVISION OF WATER QUALITY, UTAH DEPARTMENT OF ENVIRONMENTAL 
QUALITY, TESTIFYING ON BEHALF OF THE ASSOCIATION OF CLEAN WATER 
 ADMINISTRATORS; CARTER H. STRICKLAND, JR., COMMISSIONER, NEW 
    YORK CITY DEPARTMENT OF ENVIRONMENTAL PROTECTION; DAVID 
 WILLIAMS, DIRECTOR OF WASTEWATER, EAST BAY MUNICIPAL UTILITY 
 DISTRICT, TESTIFYING ON BEHALF OF THE NATIONAL ASSOCIATION OF 
  CLEAN WATER AGENCIES; AND KATHERINE BAER, SENIOR DIRECTOR, 
              CLEAN WATER PROGRAM, AMERICAN RIVERS

    Mr. Suttle. Well, thank you and good morning. My name is 
Jim Suttle. I am the fiftieth mayor of the city of Omaha. My 
background is I am a professional engineer. I have served as a 
public works director, an officer and executive vice president 
of one of the top 10 largest architecture engineering companies 
in the Nation. I have also served as a city councilman, city 
planner, et cetera.
    I am testifying on behalf of the U.S. Conference of Mayors, 
and I have been actively involved in our water council that has 
been working directly with EPA on the discussions regarding 
this integrated planning memorandum. I am here today to tell 
you why the mayors of this Nation are concerned about the 
rising cost of water and wastewater infrastructure, and what we 
hope EPA's memo will address.
    But the fact is still there, that we need congressional 
oversight to ensure that this process works, and that this 
process is modified to fit reality. We need true partnerships 
with EPA and the Congress to ensure that the plan achieves what 
the mayors have asked for: a flexible and cost-effective way to 
achieve clean water goals, but in a reasonable and pragmatic 
manner.
    I want to cover with you five issues. And let's change 
those to five must-do's that have to be in this modification to 
the EPA policies.
    Aside from the recent exceptions, where EPA has been more 
flexible, I want to talk about this first issue of 
affordability. The trend has been in a 4-2-20 model; 4 
overflows or less a year, a 2 percent of median household 
income as a target for local spending on the long-term control 
plan, and 20 years or less to comply to the schedule of 
implementation on the timeframe.
    This approach locks in local government to overly costly 
and overly prescriptive and overly restrictive plans. There is 
no room under this approach for innovation. There is no room 
under this approach for cost efficiencies. Let me give you an 
example, in very fundamental terms. A household with 25,000 
annual income pays $1,000 a year for water and sewer bills is 
thus allocating 4 percent of that income to these needs. If a 
$250 increase in the rates raises the household spending to 5 
percent, a $500-a-year increase in the rates raises it to 6 
percent.
    EPA and the Congress should no longer ignore the regressive 
financial impacts caused by unfunded Federal mandates on the 
low- and moderate-income households. In Omaha, in a 10-year 
period, residential rates for sewers will go from $7 annual to 
$50 annual. Do the math, and look at the logic.
    But now let's talk about businesses. Businesses and other 
organizations are often significant rate payers, because of 
their large uses of municipal water supplies. For businesses, 
wastewater is a variable cost of doing business. But history 
has demonstrated that this industry is footloose, and will 
leave a community to seek favorable water and sewer rates. I 
have 11 industries threatening to leave Omaha at the present 
time. And one of those will see its sewer bills raise over the 
next 10 years from roughly $50,000 a year to $1.8 million a 
year. If these industries leave, the cost of the burden for the 
sewer system--still is there--gets reallocated to those that 
remain.
    Second point, in addition to the affordability, I want to 
leave with you is achieving water quality goals is better 
accomplished through a permitting process, rather than 
enforcement via the consent decrees. Every morning mayors and 
local government officials wake up as criminals, as defined by 
the EPA's enforcement strategy. It doesn't matter if the mayor 
was elected 10 years ago or took office yesterday. They are, by 
definition, criminals under this process, because their 
wastewater system has sewer overflows that primarily result 
from a natural act: rain water.
    The message via the mass media of our citizens--to our 
citizens is that mayors are not trustworthy, and that they 
condone water pollution. I can think of no other Federal 
administration policy that has done so much damage to the 
intergovernmental partnership between the Federal and local 
elected officials than this EPA policy. EPA can accomplish the 
same water quality goals through a permitting process, and by 
helping States and local governments develop watershed water 
quality programs to protect the precious resources that we 
have.
    The third point that we need as a must is green 
infrastructure and green credits.
    The fourth is new technology that must be factored in to 
all of our future planning and construction and operational 
costs.
    And finally, the fifth point is that we need a grants 
program so that the partnership is in place 50/50 between the 
Federal Government and local government, to get the job done.
    So, what can Congress do? We need the Congress to provide 
oversight, and to remember that EPA has this authority because 
of the way the Clean Water Act was written. We need a paradigm 
shift. We need to do it together: local, State, and Federal 
officials exercising practical leadership and working together 
to determine what our environmental and spending priorities 
should be. Thank you.
    Mr. Gibbs. Thank you.
    Mr. Reardon, the floor is yours.
    Mr. Reardon. Thank you very much. Good morning, Chairman 
Gibbs, Ranking Member Bishop, and members of the committee. I 
am Joe Reardon, mayor and CEO of the Unified Government of 
Wyandotte County and Kansas City, Kansas. It is a long title. 
We are a city of about 155,000 people.
    We cherish clean water, and we are doing all we can to 
ensure that clean water is part of the future of our city. We 
are encouraged by the recent EPA integrated planning memorandum 
that articulates a more cooperative approach to watershed 
management. It acknowledges the tough balancing act that cities 
like ours must make in addressing our water issues, while being 
sensitive to the economic conditions of our citizens in these 
tough economic times.
    The simple fact is that people in Kansas City, Kansas, are 
suffering the effects of this recession. It has hurt many of 
our families. And as mayor, I am obligated to do all I can to 
make sure the city's resources are used to better their 
condition. The path is not an easy one, as you all are aware. 
Our current unemployment stands at 9.8 percent. Our real 
property values have declined 15 percent since the recession 
began, putting further strains on our families and our 
government's resources.
    We have a diverse community. More than half of our citizens 
are minorities. Our per capita income is one of the lowest in 
the State, at nearly $29,000 a year. A quarter of our residents 
are at or below the poverty line. Many live on fixed incomes.
    And in the midst of all of that, we have made real 
commitments to improvements in clean water and our environment. 
We have increased our sewer rate charges, now by 50 percent in 
the last 4 years. We are spending $20 million annually on 
stormwater and sanitary sewer systems. But as the city in these 
most challenging of economic times, we are making difficult and 
critical decisions about investments of the precious tax 
dollars from our citizens each year.
    Our annual budget is currently $244 million. And as was 
mentioned, we are currently in consent decree negotiations. And 
in order to meet the requirements being proposed by the EPA and 
Department of Justice, sewer fees would have to increase 400 
percent in the next 5 years. For a family, this could mean a 
sewer bill of over $100 a month. For too many of our citizens, 
that forces them to make impossible choices.
    The cost of meeting the combined sewer overflow mandate 
would be nearly four times our entire annual municipal budget. 
And this is in the midst of our city reducing its workforce by 
nearly 300 persons, freezing salaries, instituting furloughs, 
and drastically reducing major infrastructure investments to 
deal with the economic reality we all are facing. Citizens 
expect and deserve their governments to work cooperatively to 
solve problems and reach our national goal of cleaner water.
    So, today I come before you to say that the EPA's most 
recent memo is a step in the right direction. Now this memo 
must become a reality at the local level. Because the fact is 
my city and cities like mine need a Federal Government that is 
acting more like a partner and less like an adversary, moving 
away from lawsuits and consent decrees and towards real 
solutions. We need a consistent source of funding. In fact, we 
need a new perspective on funding.
    The reality is that the benefits of clean water literally 
flow to everyone. But the costs associated with addressing the 
issue are borne by just a few and, in many cases, poorer 
communities. We need a process that allows us to prioritize our 
investments in clean water in a way that will maximize water 
quality benefits and public health and safety conditions. We 
need a regulatory environment that specifies performance 
objectives, rather than the behavior or manner of compliance, 
preserving the important role that local governments have in 
deciding how to move their communities forward.
    We want an approach that looks at the entire watershed in 
an integrated way, assessing costs and approving solutions that 
are not redundant and inefficient. The EPA's memo is a good 
step in opening up those possibilities. The devil, however--and 
this was mentioned--is always in the details. And it will be 
the framework that is being prepared that provides the detail.
    I ask the EPA and you to consider a framework that honestly 
looks at the real situation cities face on the ground. Given 
that we are currently in consent decree negotiations, I offer 
up my city for a pilot study with the Federal Government to 
develop and implement a different approach, an approach in 
which the city and Federal Government work together as 
partners, not adversaries.
    Let's create a new approach of cooperation and partnership 
with a goal of developing a solution that is cost-effective and 
affordable, instead of a system and a process based on 
adversarial and unfunded mandates that citizens that you and I 
represent cannot afford.
    Let's explore more diversified and alternative funding 
mechanisms than simply looking down at cities and our citizens 
to shoulder the entire cost burden.
    Thank you very much, Mr. Chair, for giving me an 
opportunity to testify today.
    Mr. Gibbs. Thank you.
    Mr. Portune, the floor is yours. Welcome.
    Mr. Portune. Thank you, Mr. Chairman. Good afternoon, 
Chairman Gibbs, Ranking Member Bishop, members of the 
subcommittee. My name is Todd Portune, and I serve as county 
commissioner for Hamilton County, Ohio. The city of Cincinnati 
is our county seat.
    I am here today testifying not only on behalf of my 
constituents, but also on behalf of the Perfect Storm 
Communities Coalition. The coalition is made up of communities 
dealing with the perfect storm of high unemployment, high home 
foreclosure rates, stagnant economic growth, and an exodus of 
business and industry, while being required to meet expensive 
CSO/SOO wet weather consent decrees and stormwater regulations.
    We appreciate EPA's announcement that it has crafted a new 
policy to allow municipalities to prioritize through water 
quality investments, and to create a new integrated permitting 
approach. However, we believe that Congress must ensure such 
EPA policy changes are implemented in a meaningful manner, and 
that they result in real cost-effective wet weather solutions 
for communities dealing with these challenges.
    Congress should provide oversight and direction to the EPA 
in promoting cost-effective tools such as green infrastructure 
and other alternative measures, innovative wet weather 
solutions, and the like. We believe allowing communities to 
prioritize these solutions will ensure that practical, 
accountable, and affordable remedies are approved and used to 
reduce and eliminate CSO violations.
    The EPA memorandum to regional offices on integrated 
stormwater and wastewater planning directed these offices to 
provide as much flexibility as possible. However, we believe 
that congressional oversight is necessary, and we recognize 
that this hearing is extremely timely, and can help assure that 
this flexibility is actually realized by communities such as 
ours.
    Because many coalition members in other communities are now 
operating under judicial or administrative consent decrees, it 
is also important that EPA and the Department of Justice make a 
clear written commitment to updating and modifying these 
decrees more frequently in the future, so that their terms do 
not delay or hinder regulatory flexibility from truly taking 
effect. The committee's oversight into whether existing and 
future consent decrees are regularly and effectively revised 
across the Nation will be important.
    The cost of using traditional methods to meet Federal wet 
weather mandates are enormous, costing billions of dollars per 
community, and leading to massive rate increases for local 
taxpayers, as we have heard already here today. Under normal 
economic conditions, these mandates are not affordable. In the 
current economy, incurring these costs will have long-term 
negative effects. In my own community of Hamilton County, our 
judicial consent decree has been enforced since 2004. Thus far, 
nearly $400 million of sewer district funds have been raised 
and spent locally to address CSO and SSO issues.
    The EPA-approved implementation plan is expected to cost an 
additional $800 million in the next 7 years, and that is just 
phase 1 of a 2-phase plan, the total projected cost being over 
$3.1 billion in 2006 dollars, virtually every penny of it being 
paid for by local rate payers. A major chunk of our phase 1 
spending is slated to construct a deep tunnel that EPA has 
required. And as a result, our rate payers are facing double-
digit rate increases and have seen that for the past 3 years. 
We are in the middle of an expected 8 percent rate increase per 
annum for the next 5 years.
    To put all of this into perspective, our general fund 
budget for 2012 for Hamilton County was just over $205 million. 
We have declining revenues, 10-percent unemployment. We have 
had to lay off over 1,500 employees in the last 4 years to 
balance our budget, and we have not spent any money at all on 
improving other public facilities. Yet we are facing this 
enormously expensive consent decree.
    Across the Nation, affected communities recognize the need 
to manage their stormwater and improve water quality at a cost 
affordable to local taxpayers. We believe that traditional gray 
infrastructure approaches, however, are more expensive and 
unnecessary, and that communities must be allowed to prioritize 
their investment using more cost-effective and accountable 
solutions. Examples of these include reducing other sources of 
pollutants in a watershed approach, enhancement and restoration 
of instream aquatic habitats, implementing green infrastructure 
technology to control stormwater runoff using creek bed 
stabilization, and reducing erosion by diverting high flows.
    And keeping water out of the system using green 
infrastructure methods is much less expensive to treat as well, 
on the down side, and further allowing us to keep rates lower 
for our rate payers.
    In closing, members of the committee, the coalition seeks 
to work with your subcommittee. We believe and we have asked 
EPA to establish 15 to 20 demonstration partnerships in each of 
the next 5 years in communities across the Nation currently 
facing these wet weather challenges as a means to highlight 
partnership communities and promoting green infrastructure, and 
to develop the data that is necessary to ensure even-handed 
enforcement of existing policies, and to ensure flexibility 
across the board, nationwide.
    The Perfect Storm Communities Coalition looks forward to 
working with you, Mr. Chairman and members of the committee, as 
well as EPA, in developing and ensuring the implementation of 
innovative, flexible approaches in meeting these wet weather 
challenges. Thank you very much for this opportunity.
    Mr. Gibbs. Thank you.
    Mr. Baker, the floor is yours. Welcome.
    Mr. Baker. Thank you. Good morning Chairman Gibbs and 
Ranking Member Bishop and members of the subcommittee. My name 
is Walt Baker. I am the director of the Utah division of water 
quality. By way of background, I am a professional engineer. I 
have worked in consulting for a number of years before moving 
to the State where now for over 27 years I have worked at 
implementing Clean Water Act programs for the State of Utah. I 
am here representing the Association of Clean Water 
Administrators.
    Our association, which is 50 years old this year, is a 
national nonpartisan voice of State and interstate officials 
responsible for implementation of water protection programs 
throughout the Nation. Our members work closely with EPA as co-
regulators responsible for implementing Clean Water Act 
programs. We are on the front lines of Clean Water Act 
monitoring, inspection, and compliance, and enforcement across 
the country. In 46 States we are the clean water permitting 
authorities. We are dedicated to Congress' goal of maintaining 
the chemical, biological, and physical integrity of our 
Nation's waters.
    I am pleased to be able to present testimony on behalf of 
the association today regarding EPA's recent efforts to explore 
the concept of integrated planning and integrated permitting.
    The backbone of our Nation's infrastructure is aging. In 
the current economic climate, this infrastructure liability, 
coupled with addressing the demands of increasing population 
and meeting other water quality challenges such as nutrients, 
sanitary sewer overflows, combined sewer overflows, and 
stormwater has taxed the ability of many of our communities and 
utilities to keep up.
    A thoughtful identification of approaches to promote cost 
effective and synergistic solutions has never been more 
important than it is today. We are encouraged by EPA's October 
27th memo, which focuses on the need for integrated planning in 
the area of stormwater and wastewater requirements, while still 
meeting Clean Water Act objectives.
    The use of jointly negotiated and reasonable compliance 
scheduling permits is a valuable tool that accords flexibility 
while also allow the integration of planning elements. States 
have vast experience in using them to allow permittees to bring 
technology online to come into compliance with standards.
    In Utah, compliance schedules are tailored to the 
individual circumstances of our communities, in order for the 
community to plan, design, and construct its project. Often 
times we provide financial assistance to communities to 
accomplish those activities. A compliance schedule can 
beneficially be used to phase in integrated plan elements and 
to provide a community with sufficient and adequate time to 
come into compliance.
    Now, there are a few areas of integrated planning and 
permitting that we think merit attention in the coming months, 
and I would like to identify a few of those.
    One, it is important to think about the effective 
integrated planning on existing State consent decrees and 
orders. Re-opening existing consent decrees may be appropriate, 
but this should be done on a case-by-case basis, after 
deliberation by the parties involved, so as to minimize the 
risk of third-party lawsuits.
    Two, Clean Water Act programs that ignore the individual 
circumstances of States and municipalities can turn into a 
black hole that consumes precious time and resources, and can 
distract us from addressing the most pressing water quality 
problems. There are circumstances, certainly, where a national 
one-size-fits-all approach is appropriate and warranted. There 
are circumstances where, clearly, it is not.
    Three, we are encouraged that EPA's offices of water and 
enforcement and compliance assurance have jointly committed to 
an integrated planning concept. Communication between these 
offices at both the headquarter and regional level has not 
always been what it could or should be. These distinct offices 
must improve their ability to work together and with the 
States, if this initiative is to be successful.
    Four, EPA has suggested it plans to work to identify 
communities in which to pilot these approaches. Early on, 
States must be directly involved with this identification 
process.
    Let me conclude by again saying that State regulators are 
very supportive of EPA's development of a framework for 
integrated planning and permitting. The association has 
previously called upon EPA to streamline, consolidate, and 
eliminate duplicative aspects of Clean Water Act programs and 
to provide the States a list of the Agency's priorities. The 
framework may be a step in accomplishing those program 
improvements.
    However, as the permitting authorities, we must focus and 
maintain that focus on the objective set forth in the Clean 
Water Act which is to restore and maintain the chemical, 
physical, and biological integrity of the Nation's waters.
    It is our job under the Clean Water Act and complementary 
stand-alone State authorities to protect water quality. Our 
success in doing so will center on implementation.
    We look forward to working with EPA and other stakeholders 
on this framework that allows us to promote reasonable, 
innovative, and cost-effective solutions with the greatest 
environmental benefit.
    Thank you very much.
    Mr. Gibbs. Thank you.
    Mr. Strickland, welcome. The floor is yours.
    Mr. Strickland. Thank you. Good morning, Chairman Gibbs, 
Ranking Member Bishop, and committee members. I am Carter 
Strickland, commissioner of the New York City Department of 
Environmental Protection. Or, as we are known in New York City, 
DEP. On behalf of Mayor Michael Bloomberg, I thank you for the 
opportunity to testify today about EPA's integrated planning 
framework, a subject of great interest at DEP, as our budget 
and operations are significantly affected by Federal laws and 
regulations.
    To give the committee some background on my agency, DEP 
manages a regional water supply system that serves 8.4 million 
New York City residents, plus commuters and visitors--millions 
a year--and 1 million persons who reside in nearby counties. 
DEP provides over 1 billion gallons of water each day from 
several watersheds that extend more than 125 miles from the 
city through a vast network that includes over 6,000 miles of 
water mains and distribution.
    On the wastewater side, average across the year our system 
treats approximately 1.3 billion gallons a day of wastewater, 
collected again through a network of about--over 7,000 miles of 
sewers, 95 pump stations, and 14 in-city treatment plants. In 
wet weather this system can treat up to 3.5 billion gallons per 
day. In addition to our treatment plants, we also have four 
combined sewer storage facilities.
    DEP has one of the largest capital budgets in the region to 
maintain these services, with $14 billion of work currently 
under construction or design. Our capital program will generate 
almost 3,000 construction jobs per year over each of the next 4 
years.
    DEP is funded almost exclusively through rates paid by our 
customers, which have gone up 140 percent in recent years. Last 
year was our first single-digit rate increase in the last five. 
So even Federal assistance, primarily in the form of grants, 
has accounted for less than 1 percent of our budget since Mayor 
Bloomberg took office in 2001. If you add ARRA funding, it is 
less than 2 percent, even though 69 percent of the $22 billion 
we spent in capital investments since 2002 has been the result 
of Federal mandates. And I point out that this amount, $22 
billion since 2002, is for both wastewater split roughly 
equally, and it is more than any other capital need for other 
social needs in our city.
    Cities prioritize needs to produce a balanced budget every 
year, and that experience has shaped draft prioritization 
legislation developed by NAC1, and you will hear more about 
that. We are encouraged that EPA has recognized that such an 
approach is critical.
    Although EPA's integrated planning framework is new and 
still taking shape, I am hopeful that the program will bring 
more collaboration.
    We certainly face a lot of mandates, not only CSOs 
treatment plant upgrades, but also stormwater discharges and 
nutrient loadings. And the cost of maintaining the status quo 
is pretty significant. We have, looking forward, 25 percent of 
our budget is due to mandates, and that flexibility allows us 
to build out sewer networks and the like to those thousands of 
New Yorkers who lack sanitary sewers or storm sewers.
    Since DEP and many other utilities manage drinking water-
related programs, as well as wastewater programs, our customers 
pay one rate for both water and wastewater services. For that 
reason, it is critical that EPA expand the integrated planning 
framework to include both mandates for drinking water programs 
and wastewater programs.
    We certainly have many questions about how the integrated 
planning process would work, including the fundamental issue of 
the overall metrics or standards that will be used to 
prioritize investments across these silos, and the criteria 
that EPA or delegated State programs would use to provide a 
successful integrated program. While these are difficult 
questions, we are confident it can be done.
    I would point out that in planning documents such as Mayor 
Bloomberg's PlaNYC 2030, our sustainability plan, this 
document, New York City green infrastructure plan, and my 
agency's strategy 2011 through 2014, our administration is 
taking on the same challenge of articulating goals and 
identifying ways to measure progress towards them, often with 
innovative technology. We think our experience will be useful, 
as we discuss these matters with DEP.
    Our general support for integrated planning is based on the 
assumption that the process will result in regulators and 
municipalities agreeing that not all wastewater stormwater 
problems are equal, or drinking water problems, for that 
matter, in terms of costs and benefits. Here is one example.
    In New York City, water quality data for New York Harbor 
support the conclusion that CSOs are the dominant water quality 
issue. And we are planning our investments accordingly. And 
that stormwater runoff is a lesser issue. While CSOs contribute 
slightly over 50 percent of the total flow, as compared to 
stormwater discharge and direct drainage, CSOs are estimated to 
contribute approximately 97 percent of total pathogen loading, 
citywide. As we understand it, the integrated planning process 
will provide a way for New York City to discuss with its 
regulators the merits of focusing on CSO abatement efforts.
    Finally, I would point out that this effort, integrated 
planning effort, is congruent with another initiative we have 
great hopes for, which is the agency's efforts to come up with 
a regulatory review plan to meet the Executive Order 13563, 
which also recognized the need for flexibility in the use of 
cost benefit principles. We are particularly interested in 
EPA's commitment to review its application of the CSO policy 
and the Long Term 2 Enhanced Surface Water Treatment Rule, or 
the LT2 rule. Without such a review, New York City will be 
forced to cover at a cost of $1.6 billion a 90-acre reservoir 
for which we show no public health benefit. It is a significant 
cost for no benefit.
    We do believe that EPA could better coordinate the efforts 
of its enforcement office, which all too often are independent 
of its program offices, such as the office of water.
    In conclusion, we are cautiously optimistic, and we welcome 
congressional oversight of both the integrated planning 
framework and EPA's regulatory review process. Thank you.
    Mr. Gibbs. Mr. Williams?
    The floor is yours. Welcome.
    Mr. Williams. Chairman Gibbs, Ranking Member Bishop, 
members of the subcommittee, I am David Williams. I am the 
president of the National Association of Clean Water Agencies. 
And I am here testifying on behalf of NACWA this morning. I am 
also the director of wastewater at the East Bay Municipal 
Utility District, serving communities along east San Francisco 
Bay. And I am also an elected board member of the Central 
Contra Costa Sanitary District in Martinez, California.
    NACWA applauds the subcommittee for holding this hearing. 
We feel you have an important responsibility to communities and 
rate payers to encourage EPA to act boldly and timely.
    Yesterday there was a dialogue held here in DC. Over a 
dozen utility leaders, key stakeholders, including State 
regulators and NGOs, and EPA staff Cynthia Giles and Nancy 
Stoner, we discussed the elements of the integrated planning 
framework. I felt it was a very productive meeting and served 
as a good kickoff for listening sessions that EPA has planned 
over the coming months across the country.
    So, we have had four decades of success with the Clean 
Water Act. But we have also had significant mounting 
regulations under the Clean Water Act dealing with SSOs, CSOs, 
stormwater, nutrients, and others. And these, of course, have 
been driven by water quality standards and TMDLs.
    There has also been a lot of enforcement. We currently have 
about 100-plus communities, wastewater communities with consent 
decrees, amounting to billions and billions of dollars. And we 
also have Clean Air Act and Safe Drinking Water Act regulatory 
burdens.
    EPA itself estimates that there is a gap of $300 billion to 
$500 billion in infrastructure investment needed over the next 
20 years. And this is above and beyond regulatory compliance 
costs. So, simply put, in the absence of a new approach to 
compliance and prioritization, the future of maintaining--let 
alone adding to--the water quality gains that we have achieved 
is at risk.
    My agency, East Bay MUD, offers a good example. In the 
1980s we had a problem with overflows from our interceptor 
along San Francisco Bay, creating a public health concern. So 
the communities--our satellite communities--and East Bay MUD, 
collaborated with EPA, and we put together a wet weather 
program that resulted in expending $350 million on wet weather 
treatment facilities by East Bay MUD, and $350 million of 
improvements in the collection system by the communities. It 
was a huge success. We reduced overflows into San Francisco 
Bay, untreated overflows from over 10 per year to less than 1 
in 5 years.
    However, recently in 2000--these facilities were built in 
the 1990s--in 2000 a new interpretation of the secondary 
treatment rule as it applies to these wet weather facilities 
and new regulations dealing with trace metals and organics 
resulted in us being under a court order to cease discharging 
from these facilities. This undoubtedly will result in a very 
large capital program, estimated to be $1.5 billion to $2 
billion, this while we are still paying off the bonds from the 
first program.
    Our communities are already struggling with budget deficits 
and double-digit rate increases. So we feel that something like 
integrated planning is good in that it would seek to prioritize 
the regulations, such that those with the highest net 
environmental benefit would be put at the top of the list, and 
you would spend the limited public resources to do those 
projects.
    So, we had this dialogue yesterday. There was an outline of 
the framework presented by EPA. We thought it was well thought 
out and comprehensive. We felt EPA was sincere and serious in 
their efforts to move this initiative forward. And the 
attendees all appeared to be pretty much on the same page, 
thinking that this was a good idea.
    One of the key issues that we struggled with was how it 
would be implemented. So EPA explained you can do it via permit 
or a consent decree, or maybe some hybrid. But all seemed to 
favor that a permit would be the better approach. NGOs tend to 
like permits, because it is an open, participatory process. 
Whereas, the regulated community often do not like consent 
decrees because of the stigma of enforcement, the negotiations 
are often times contentious, trying, long, drawn-out, and 
costly, and if you have a permit you do have a permit shield.
    So, one of the questions that the group struggled with was 
how do you actually do this, given the constraints of a 5-year 
permit term? If you have an integrated plan that is, say, on 
the order of 25 years, how does that fit into a 5-year term? 
You need to have the certainty that the investments that you 
are going to be making in these prioritized regulations will 
actually be codified in a permit.
    So, one idea is perhaps could you have some legislative 
approach that you could have a longer term permit that is 
associated with integrated planning when you have approved 
plans in place?
    Another issue is--that needs more discussion is 
flexibility. And we are talking about real flexibility, in 
terms of compliance with rules, guidance, and even regulations 
that have not yet been adopted and are on the horizon. We need 
relief mechanisms such as variances where they are appropriate. 
And also the issue of equity, so people who already have 
consent decrees in place, that they would be allowed to open 
those up and examine them from an integrated permitting 
approach.
    EPA noted that we also need to look at the possibility of 
joint plans coming forward, where you have various 
jurisdictions at the municipal level, say with stormwater, that 
would get together and jointly put together an integrated plan.
    And finally, we need to have the flexibility to address 
circumstances where there is new technology, or where financial 
circumstances within the communities have changed.
    So, in summary, we are at a crossroads. NACWA recognizes 
the subcommittee's concern with Clean Water Act cost of 
compliance, and we share this concern. Now is the time to put 
something in place: a new framework. NACWA has shared with the 
subcommittee its draft legislation for a viable integrated 
permitting approach. We want you to know we stand ready to help 
in any way we can. And I thank you for allowing me to testify.
    Mr. Gibbs. Thank you.
    Ms. Baer, welcome. The floor is yours.
    Ms. Baer. Thank you. Mr. Chairman, Ranking Member Bishop, 
and members of the subcommittee, thank you for inviting me here 
to testify today. My name is Katherine Baer, and I am senior 
director of the clean water program for American Rivers. 
Founded in 1973 with offices throughout the Nation, we are a 
leading voice for healthy rivers and the communities that 
depend on them.
    EPA's effort to create a more integrated approach to water 
management warrants support. For too long, there have been 
unnecessary silos between the management and planning for 
stormwater, wastewater, and drinking water, thus missing 
important opportunities to use smarter and more sustainable 
approaches to protect clean water.
    As long as the fundamental standards and requirements 
established in the Clean Water Act to protect public health and 
the environment are preserved, this integrated approach could 
greatly benefit rate payers, communities, and the environment.
    I will briefly address the following main points with 
respect to integrated permitting: first, the need to maintain 
strong clean water safeguards; and second, the opportunity this 
presents to advance a more sustainable and cost effective 
approach.
    The Clean Water Act is responsible for improved water 
quality, nationally. Since 1972, the number of streams, rivers, 
and lakes meeting water quality standards has doubled. And yet, 
40 percent of America's rivers and 46 percent of our lakes are 
too polluted for fishing, swimming, and aquatic life. And every 
year up to 3.5 million people get sick from sewage-contaminated 
water.
    The challenges to clean water range from population growth, 
sprawl, increasingly severe and frequent floods and droughts 
that all strain existing infrastructure. Meeting these 
challenges requires us to direct limited dollars towards cost-
effective solutions that produce multiple community benefits.
    At the same time, the fundamental structure and goals of 
the Clean Water Act must be preserved. Water quality standards 
are the backbone of the Act, and serve to protect human health 
and the environment.
    Any integrated permitting approach must achieve the Clean 
Water Act's goals in the most sensible, efficient way, and not 
weaken the Act's fundamental protection of streams and rivers 
that provide drinking water for roughly two-thirds of all 
Americans.
    As this hearing is about smart investments in clean water, 
which are sustainable approaches that maximize benefits for 
dollar invested, we can no longer invest solely in outdated 
infrastructure approaches that focus exclusively on pipes, 
pumps, and reservoirs. Instead, we must better integrate the 
built and natural environments.
    Healthy flood plains, small streams and wetlands, and 
streamside buffer zones are key parts of our water 
infrastructure, and should be considered a first line of 
defense against floods, droughts, and pollution. In both 
developed and developing areas, we must integrate techniques 
such as green roofs and rain guards to reduce, re-use, and 
clean our water.
    Such smart infrastructure approaches have far-reaching and 
multiple benefits: reducing stormwater runoff and sewage 
overflows; recharging drinking water supplies and creating 
green space, made all the more valuable in the current fiscal 
crisis. In many cases, these forward-thinking infrastructure 
approaches will cost less than traditional strategies.
    Sanitation District No. 1 in northern Kentucky developed an 
integrated watershed plan that included green and gray 
infrastructure approaches that will save rate payers $800 
million and produce better clean water results than the 
original all-gray infrastructure plan.
    In Bremerton, Washington, a city of 40,000, the city has 
used both green and gray approaches to reduce combined sewer 
overflows. A program to disconnect downspouts kept water out of 
the sewers and, instead, soaked it into the ground. Using this 
and other methods, such as permeable pavement, Bremerton 
calculated that it was 10 times cheaper to treat the water 
naturally, even with the cost of providing an incentive payment 
to homeowners.
    Because the integrated permitting approach under discussion 
today is driven largely by the question of how best to pay for 
clean water, approaches that are cost-effective and address 
multiple problems at once are, of course, ideal.
    However, I note that existing funding sources are not 
always aligned to support this integration. Bonds, for example, 
are often limited in their ability to fund anything other than 
fixed and central treatment plants.
    But there is now increasing interest in aligning funding to 
support better integration. In recent years, for example, EPA 
has provided clear guidance to the State on defining green 
infrastructure projects eligible for the SRFs, and States are 
leveraging this money for a broad range of projects to save 
water, save energy, and achieve clean water.
    Similarly, local governments are finding that providing a 
financial credit for treating stormwater on site is creating a 
market for local contractors and expanding local job 
opportunities. Efforts to formally recognize natural assets as 
part of the process are also underway. So, for example, 
protecting a city's drinking water supply through source water 
protection should be valued as an asset against which to borrow 
for further investments.
    Although Federal funding does not appear to be increasing, 
we encourage EPA to look for ways to prioritize existing 
Federal resources towards integrated approaches, and to 
encourage innovative financing options. And we continue to 
support the reauthorization of the SRF.
    The innovative approaches demonstrated in communities in 
Washington and northern Kentucky are working across the 
country, and recognized by EPA as a cost-effective way to meet 
Clean Water Act requirements and offer new job development and 
economic growth opportunities. Yet, such sustainable approaches 
remain in the minority at this point.
    We agree that there is a benefit to moving toward more 
integrated infrastructure through better planning, evaluation, 
and sequencing of investments, but only if smarter 
infrastructure is driving this process. Green infrastructure, 
water efficiency, and other innovative solutions must be 
analyzed on equal footing with traditional approaches.
    People and businesses across the country, regardless of 
their means, need clean water. Upholding the Clean Water Act's 
goals for public health and the environment, as well as 
requirements for public participation, are critical to the 
success of this effort.
    Thank you for the opportunity to testify.
    Mr. Gibbs. Thank you. I will start off questionings here. 
Well, it is pretty evident to me--I appreciate all the 
testimony that--really come to a head on this issue, where we 
have had for--since the Clean Water Act went in place in the 
early 1970s, building infrastructure and doing a lot of good 
work, that, an enforcement mechanism versus an integrated 
approach, I think it is pretty clear which way we should go. 
Our next panel will have more discussion on that.
    But I am a little bit intrigued. Two things I want to cover 
in my questions is the watershed approach and then get to talk 
about permits. I want to start off with Mr. Strickland. In your 
testimony you talk about combined sewer overflows contribute 
slightly over 50 percent of the total flow during stormwater--
compared to stormwater discharges. But then the CSOs, 
approximately 90 percent of the total pathogen loading, 
citywide.
    Now, I guess I am a novice here, but I would conclude 
during a storm event, and you got all that stormwater coming in 
to the combined sewer overflow, that is why you get the 97 
percent. So I guess my question is, if we were able to take a 
watershed approach and deal with stormwater way above your 
sewage treatment plant, and keep that from getting in, that 
would solve a lot of the problems. See where I am headed there?
    Mr. Strickland. Yes, that is correct. And, in fact, that is 
what we do, Mr. Chairman, with our green infrastructure plan.
    You know, maybe a few background facts that will explain 
that. We--our city, about half of our city, is a separated 
system, or direct discharge, and about half is in a combined 
system. But the loading, the pollutant loadings, 
overwhelmingly, as I testified, and as you noted, come from our 
combined sewer system and combined sewer overflow. So that is 
where we want to spend the money.
    And we have long-term control plans coming up over the next 
few years that will certainly take account of those sources and 
loadings. However, right now we are negotiating with our State 
agencies, our primary regulator, an MS4 permit. And our concern 
is that, while we have that watershed planning on the horizon, 
in terms of long-term control plans, we--there is a possibility 
of having a very costly--with little benefit--separated 
stormwater controls.
    Mr. Gibbs. I guess for the record, for anybody that wants 
to respond, is it safe to say that--I know we got some aging 
infrastructure out there in our treatment plants--that we are 
doing a pretty good job on sanitary systems, specifically, when 
stormwater systems aren't involved with that? Is that--you all 
shake your heads--that has been pretty good there?
    So, the issue really is during a storm event, how we handle 
all that gray water. I guess we call it gray water, right?
    Is there anything--anybody can respond--that either at the 
State level or at the Federal level, where laws would need to 
be changed to give you the ability to work in the entire 
watershed?
    I am thinking of most cities, you know, your sewage 
treatment plants down at the end of the watershed, and you got 
all that water coming in, to have this watershed approach, is 
there anything that is limiting your ability, under local laws 
or not having the ability to move out in the entire watershed, 
it is outside your jurisdiction? Mr. Suttle?
    Mr. Suttle. Well, in the State of Nebraska we do not have 
legislation. We have been arguing about it for 40 years on the 
watershed side. But yes, those of us that are in the 
profession, engineering and many others, support the watershed 
concept. But we would need enabling legislation in Nebraska in 
order to do that.
    Mr. Gibbs. Yes, Mr. Baker?
    Mr. Baker. Back in the 1970s and the early 1980s, we had 
basin-wide plans. EPA and the Federal Government were heavily 
invested in developing those 208 Water Quality Management 
Plans. When the construction grants program went the way of the 
dinosaur, replaced by the State Revolving Fund program, that 
left a void, I think, in long-term planning. 208 Plans served 
as a guiding plan that integrated municipalities and what they 
did with their wastewater.
    So, what we are left with, I think, is kind of independent 
permittees in communities, and not integrated master plans. So 
I think that is one thing that came out of the canceling, if 
you will, of those 208 Water Quality Management Plans.
    Mr. Gibbs. Yes, Mr. Williams?
    Mr. Williams. I agree. The 208 Plans were sort of the 
watershed approach, and NACWA has supported a watershed 
approach for some time. With no funding for those plans, it 
tends to be everybody is on their own. There are some efforts 
to try to do it, but often times it is on a pollutant-specific 
basis, as opposed to a more holistic approach.
    Another concept is since the Nation does have a huge issue 
with wet weather--and it is something that legislation, I 
think, changes to the Clean Water Act--is the issue of wet 
weather standards. So actually, dealing with the wet weather 
issue head-on through development of wet weather standards, 
which we currently don't have.
    Mr. Gibbs. OK. I am out of time. I will get to the rest of 
my questions on the next round. Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman. And to all 
of you, thank you for some very important and helpful 
testimony.
    I should observe that a rare thing has happened today. 
There has been near unanimity among all of you, and that 
unanimity has been positive, with respect to an EPA policy 
initiative. And I think that ought to be noted for the record, 
with some gratitude.
    I have a question for Mr. Suttle and Mr. Reardon. Mr. 
Suttle, you talked about a 50 percent share, Federal Government 
and local government. Mr. Reardon, you talked about a 
consistent source of funding. I am presuming that you are 
looking to the Federal Government to be at least a piece of 
that consistent source of funding. I gave the numbers in my 
opening statement. We spent $2.1 billion for the SRF in 2010, a 
little under $700 million in 2011. Likely that it is going to 
go down again, fiscal year 2012. We now have statutory caps on 
spending, going forward. So the prognosis going forward is 
decidedly unfavorable, in terms of the Federal Government 
supporting wastewater infrastructure, clean water 
infrastructure.
    But I have a very specific question. The--and that is 
whether your two organizations have conducted any analysis of 
what the balanced budget amendment, which, as you know, is one 
of the principle policy priorities of the majority, what impact 
that would have, if we were to have a balanced budget amendment 
take on the force of law, what impact that would have on the 
ability of the Federal Government to assist local government in 
dealing with this very real and very--I would say--unachievable 
need to upgrade existing systems?
    So, Mr. Suttle and Mr. Reardon?
    Mr. Suttle. Well, I think one of the things that needs to 
be put in perspective in addressing what you are talking about 
is that all cities and all States in this Nation must have 
balanced budgets. We cannot do deficits in our operating costs. 
Now, we can go into debt, but we have to service that debt.
    Now, Omaha is one of 16 cities right now enjoying a AAA 
bond rating from Moody's and Standard & Poor's. And we worked 
hard to get that back. Moody's is telling us over and over--as 
Standard & Poor's--that the $1.3 billion debt that the city of 
Omaha is now having is too high. But they like the way we are 
servicing it. But when you add $1.7 billion on top of that, we 
are going to the moon, ladies and gentlemen. And that is not 
going to work. And that is our dilemma, at the local level.
    I realize at the Federal level you are wrestling with all 
kinds of things. But we still get back to that basic question 
in Econ 1 that revenues minus expenses should always be a 
positive number. And we are not working that way very well in 
Federal Government. But local government and State government 
is.
    Mr. Bishop. You do recognize there is a difference between 
how the Federal Government accounts for its expenditures and 
local----
    Mr. Suttle. I do understand that.
    Mr. Bishop. Local government can bond capital investments; 
Federal Governments can--does not. So----
    Mr. Suttle. And I understand that.
    Mr. Bishop [continuing]. There is a real difference there. 
But that doesn't diminish your point. I understand.
    Mr. Suttle. No, and it doesn't, but----
    Mr. Bishop. I understand the point you are making.
    Mr. Suttle. If we are going to be partners, as we were in 
the 1970s and 1980s. We were partners. And we had financial 
partnership. And we worked it through all kinds of means. We 
worked it through bonds, we worked it through State Revolving 
Funds, we worked it through grants.
    But here we are, at another point in time, and these 
numbers are horrific. Horrific numbers. This debt burden cannot 
be put on the shoulders of local government.
    Mr. Bishop. But--and I don't want to put words in your 
mouth.
    And, Mr. Reardon, I want to give you an opportunity.
    But I think what I hear you arguing for is an increased 
investment on the part of the Federal Government in helping 
local governments step up to these very real needs.
    Mr. Suttle. Yes, and let's recognize the other priorities 
going on right now. This whole question, or issue----
    Mr. Bishop. I want to give Mr. Reardon a chance, because I 
am running out of time.
    Mr. Suttle. This whole question and issue is about, really, 
adding a tremendous overhead cost to the economy. And we are 
not gaining anything. We are supposed to be looking at how we 
create jobs. But the jobs need to be in manufacturing and the 
service industry, as we----
    Mr. Bishop. Well, I would gently take issue with you. I 
heard Mr. Williams talk about, I believe, a $700 million 
investment that took place several years ago that you said 
yielded tremendous results. Is that not correct?
    Mr. Williams. That is correct.
    Mr. Bishop. Thank you. I--Mr. Chairman, will you let Mr. 
Reardon----
    Mr. Reardon. Thank you so much, Mr. Chairman. We are 
practical at the local level. The benefits of clean water, 
which we absolutely believe in, can't be shouldered by 
individual communities. We will not solve the problem. We need 
you as a partner, not just on the regulatory side, but also 
financially, to figure out how we are able to fund this in a 
way that doesn't shoulder so much of the burden----
    Mr. Bishop. OK.
    Mr. Reardon [continuing]. On local communities and really 
cause, I think, an economic issue in cities that----
    Mr. Bishop. Yes, I thank you. And the legislation that I 
filed would be a means. Not the only, but a means of the 
Federal Government coming to the table to be that partner that 
you are seeking.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. Mr. Cravaack, do you have any questions?
    Mr. Cravaack. Thank you, Mr. Chairman. I appreciate all the 
testimony. One of the other things I saw throughout the panel 
here is a frustration. And a frustration that I have, too, is 
on the congressional side. We have a $3.5 trillion budget and 
$1.6 trillion of that is borrowed money. Forty-seven percent of 
our debt is foreign-owned, and 30 percent of that is owned by 
the Chinese.
    So, on your local levels--and I commend your AAA rating 
on--as a mayor. And I truly believe the answers to the 
questions we have on the Federal level actually initiate at the 
local level.
    So, with that said--and Mr. Suttle, if you could--if you 
were sitting here in my position, knowing what you know about 
the Federal situation in regards to our debt, and how we are 
placing a burdensome amount of debt on future generations, also 
understanding what you have just told me today about being a 
mayor of your--in your community, what is your answer? What 
would you be telling--what could you say? How would you solve 
this problem?
    Mr. Suttle. I think we need to focus on the proper 
priorities that are going to get the U.S. economy going, and 
get us solidly into the number one seat, and that is jobs. 
Construction jobs are great. But at this point, we need to 
really get our economy going, and what turns the engine. And I 
would ask you to set that as a priority.
    Jim Clifton's new book--he is the CEO of Gallup--is an 
excellent book for all of us to read on what we need to do on 
jobs. And what we are talking about today is fine, well, and 
noble goals, and we support it. But it is not addressing the 
jobs initiative to turn our economy and propel us, and keep us 
ahead of the Chinese.
    Mr. Cravaack. I agree, sir. Jobs, you know, does this other 
thing, too. By creating jobs within the--in the private sector, 
it also creates revenue. That is from taxes, as well, which 
has--we create more revenue for--and then it can also assist us 
in the plans that we have.
    Mr. Suttle. Back to that equation I said: revenue minus 
expenses should always be a positive number.
    Mr. Cravaack. Yes, sir. Mr. Portune?
    Mr. Portune. Mr. Cravaack, if I may, to add to the answer 
to your question, though, we certainly understand, both in 
Hamilton County as well as the Perfect Storm Coalition, the 
tremendous fiscal challenges the Federal Government faces.
    And that is one of the reasons why while we are not 
opposing by any means Federal investment in this problem, 
again, to put it in perspective, $3.1 billion for our problem 
alone--and look at the dollars that you are talking about on a 
Federal level, and we are just 1 of 781 communities--but our 
focus has been more on regulatory flexibility. Because for 
every dollar that we save, that is the same as a dollar we 
receive from the Federal Government that we have gained, in 
terms of flexibility.
    We presented a very detailed green build infrastructure 
program for our overall wet weather improvement plan, long-term 
control plan. It will have saved us $1 billion off of that $3.1 
billion price tag. It was not approved. We do have the ability, 
within our consent decree, to work up alternatives and present 
those. But we are still under very strict timetables. And if 
they are not approved by the regulators, we have to go forward 
with the same gray build approach, which is much more 
expensive. So we end up spending money on both sides without 
any flexibility at all.
    Flexibility is truly key here. And flexibility, in terms of 
allowing local governments the ability to make these investment 
decisions on where to apply our dollars, the green build 
approach, keeping water out of the system, it ends up being 
able to accomplish the same results cheaper and quicker. It 
serves the dual purpose of also--by keeping stormwater out of 
the system, we end up having to treat less effluent, and that 
saves money.
    And, from a jobs perspective, as these rates go up, nothing 
is going to do more to chase people and business out of my 
community than the increase in sewer rates. Not the rate of our 
taxes, not anything else that is going on. It is the increase 
in rates.
    So, flexibility that allows us to save money is important. 
And that is also why we focused on urging 15 demonstration 
project communities a year for 5 years, to help build the data 
that will allow for uniform application of these alternative 
approaches across the Nation, so that you don't have different 
outcomes, depending upon what EPA region you are in, or even 
within a region, depending upon who the regulators are that 
show up.
    Mr. Cravaack. Well, thank you. I appreciate it. I am out of 
time. But just to let you know, I grew up in Hamilton County, 
so--I grew up in a small town called Madeira.
    Mr. Portune. Yes, sir.
    Mr. Cravaack. Thank you very much.
    Mr. Portune. It is a great town. Thank you, sir.
    Mr. Cravaack. I am out of time, and I yield back, sir.
    Mr. Gibbs. I didn't know you were a Buckeye. Mrs. 
Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. Mr. Suttle, that 
report I was referring to, I would hope that maybe you would 
have somebody review it and maybe share it with the mayors, 
because it does cover some of the things about jobs--created 
jobs with the water industry, with the green technology, with 
all of the things we have been talking about here. Any of you 
welcome to it.
    Mr. Baker, I was a little bit confused when I saw ACWA. To 
me, it is a California Association of Water Agencies, and it 
kind of threw me for a loop there.
    Question is, have you done a survey on the analysis on the 
economic value that water infrastructure development brings to 
a community or to a region? And specifically, have you looked 
at the number of direct, indirect, and induced employment 
opportunities that water investments can bring to the area?
    The reason I ask this is in our area, in LA County, we can 
point to the positive impacts on jobs and the economy that the 
investments have made. And in the case of LA County, over 14 
occupations directly benefitted from water investments. And we 
make more jobs, as I stated before, in water than we do in the 
movie industry or in the fields, in agriculture, in many areas.
    From your perspective, what would it take to conduct this 
sort of assessment by your association? And is it something 
they might do so we could get a sense of the value of investing 
on our water resource infrastructure?
    Mr. Baker. Let me speak to not so much broadly nationally, 
but what we are doing in Utah, because we are faced with many 
of the same issues that other States are. Nutrients are a very 
important pollutant source right now that we are addressing in 
Utah. We don't have the Chesapeake Bay-type problem as we are a 
headwater State. But nutrients is the number one polluter in 
our State.
    Mrs. Napolitano. Nature cost?
    Mr. Baker. The cost to address nutrients. That is the 
biggest pollution source. If we were to look at----
    Mrs. Napolitano. Is it nature cost? Is it induced by 
nature? Is it industrial pollutants?
    Mr. Baker. Well, it is both. It is agricultural runoff, it 
is urban, it is wastewater treatment plants. The nutrients are 
sucking the oxygen out of our streams. And it is the leading 
cause of impairment of our streams in Utah. So, although we are 
a headwater State, it is very important for us to address 
nutrient pollution.
    What we have done is undertake a two-pronged study. One, to 
look at the cost of removing nutrients, so that we know what 
the impact would be to our rate payers and municipalities. The 
second is to determine what would be the benefit? For example, 
drinking water. If we don't have to treat drinking water to 
remove these pollutants, what is the benefit? What is the 
recreational benefit that comes to the State of Utah for having 
cleaner water?
    Mrs. Napolitano. OK. I am running out of time. But you 
translated it into economic evaluation?
    Mr. Baker. Correct. Yes. Both on the cost side, what the 
cost would be to remove it, and what the benefit would be if we 
were to remove it. We are looking at that economic analysis in 
Utah.
    Mrs. Napolitano. Love to see that report, sir, if you 
wouldn't mind sharing it with us.
    Mr. Baker. We have got half done. The other half will be 
done in the spring of this year.
    Mrs. Napolitano. Thank you. And, Mr. Williams, welcome. 
Coming from California, glad you came to this cold weather and 
shared it with us here.
    I would like to speak to your position associated with the 
city of Oakland and the issues facing the San Francisco Bay 
Delta area in respect to water, of course. We are acutely aware 
of the controversy regarding the management of water in 
California, and the perplexing problem of how to move massive 
amounts of water from mountains to the north to the 
agricultural fields and the heavily populated areas in the 
south, impacts associated with moving water from north to 
south, expanding populations, agricultural runoff, as was just 
heard, aging wastewater treatment plants, the water 
infrastructure, et cetera, et cetera.
    State of California is working with the Federal Government 
and local entities to find solutions to our escalating water 
quality concerns. Recent agribusiness in Central Valley has 
been pointing fingers at the wastewater treatment plants in 
northern California as being the culprits in degraded water 
quality conditions in the Bay Delta ecosystem.
    Would you--what type of integration has been proposed by 
EPA--aid or lead to more confusion, with respect to how Oakland 
manages its wastewater? And if yes, please explain why. If no, 
what benefits could occur?
    Mr. Williams. That is a----
    Mrs. Napolitano. Big issue, north versus south.
    Mr. Williams. Yes, if you have a couple hours----
    [Laughter.]
    Mr. Williams. So you are correct. The whole issue of water 
in California, and moving water from north to south, and the 
impact, particularly in the Bay Delta, as you are aware, 
Sacramento Regional, a large treatment plant that is tributary 
to the Delta, has----
    Mrs. Napolitano. Sacramento.
    Mr. Williams. Yes, Sacramento has a large price tag that is 
associated with their new permit for removing nutrients from 
their wastewater.
    The POTW community that is further downstream in Suisun 
Bay, which is then tributary to San Francisco Bay, are very 
concerned about having these limits put in their permit, as 
well. And, in fact, the agency that I am a member of the board 
of directors, Central Contra Costa Sanitary District, has a 
permit that the water contractors had said they need to have 
nutrient limits put in that permit.
    The key issue, from the wastewater community perspective, 
is that what is the science based on? Because it is going to 
end up costing literally billions of dollars if it is 
implemented in terms of permit limits. We have looked at it 
from the wastewater community perspective. We think the science 
is not complete, at this point, and it needs to be more robust. 
There has only been a couple reports that have been utilized to 
essentially act as a springboard, for putting these limits into 
permits, which will require removing the nutrients.
    So, we are fully supportive of doing what is needed. But we 
believe that the sound science is extremely important.
    Mrs. Napolitano. Thank you for your indulgence, Mr. Chair.
    Mr. Gibbs. Ms. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. I would like to thank 
all of you all for your testimony. I didn't hear the entire 
testimony, but I appreciate it.
    I am just--I wanted to ask a question if any of you all 
used stimulus money or had stimulus projects in your regions, 
or that you directly accessed funds for those. If you could 
talk about them a little bit, Mr. Strickland.
    Mr. Strickland. Sure. We, in New York City, got on the 
wastewater side--I can't speak to the rest of it, but we 
received $221 million in stimulus funds; $150 million of that 
is going towards three large sludge vessels, vessels to 
transport sludge that are being built in Texas.
    So, you know, the rest are being spent on plant upgrades 
and the like. We----
    Mrs. Capito. This is in New York?
    Mr. Strickland. This is in New York City.
    Mrs. Capito. In New York City. OK. I thought you said--did 
you just say Texas?
    Mr. Strickland. They are being built--vessels are being 
built.
    Mrs. Capito. In Texas?
    Mr. Strickland. In Texas.
    Mrs. Capito. OK.
    Mr. Strickland. That we brought up. So that--we find that 
is a significant benefit, certainly, and we are happy to 
receive it.
    Mrs. Capito. But these projects haven't actually gone--I 
mean they are partially forward, but not----
    Mr. Strickland. We haven't received shipping yet. We are on 
track. And I will say that it adds--if you consider ARRA 
spending, we have received--2 percent of our capital spending 
over the last 9 years has been from the Federal Government. 
Without that, it is 1 percent. So it was helpful. It was 
wonderful. It will create jobs. It certainly hasn't spoken to 
the larger issue of defraying costs and helping us out.
    And I will say that, you know, one thing--localities are 
spending the money and are spending quite a bit of money. I 
think the key question here is what are we getting for it? And 
for example, if local--we are all in the business of providing 
service to our customers. To the extent that those--what we are 
asking for is having Federal mandates match those customer 
service priorities, one of which--one of the basic ones is 
providing clean water and drinking water.
    These are not mandates, but New York City has committed to 
spending $5 billion on a third water tunnel which will create 
some redundancy in-city, and several billion dollars to 
create--to fix our Delaware aqueduct, which has a leak every 
day. Those are obviously construction jobs, money that will be 
spent, but it is meeting our--the priorities that we determine 
are foremost. And to the extent that we have competing mandates 
that come down that don't match local priorities, it will bump 
out those local needs.
    Mrs. Capito. OK. Let me ask another question, because my 
time is going kind of fast here.
    I know in a lot of construction projects that are involved 
with Federal funding, that the timeline to get projects from 
the time it--you know, concept, idea concept to actually 
turning the dirt has become longer. And we all know time is 
money. Are you finding this with your projects? And is there a 
way that you could streamline this process, understanding that 
we are in financial constraints, here?
    Certainly one of the things we are looking at on the--in 
the transportation bill is to try to streamline the permitting 
process and make it more simultaneous, so we can cut the 
timeline, so that the money can go farther.
    Does anybody have a comment on that? Mr. Portune? Well, I 
said that----
    Mr. Portune. Senator Portman, also from Cincinnati, but 
that----
    Mrs. Capito. Portune.
    Mr. Portune [continuing]. Is not me.
    Mrs. Capito. Yes.
    Mr. Portune. We do occasionally confuse our mail, though. 
That is correct. No, it is Portune, Hamilton County 
commissioner----
    Mrs. Capito. Yes.
    Mr. Portune [continuing]. Thank you, Representative. 
Certainly any way in which you can condense the timeframe it is 
going to end up saving money.
    Now, in our sewer system, though, our district, we have 
very few Federal dollars that are involved. Only $6 million, 
and that came from the State Revolving Loan Fund that 
ultimately came out of stimulus money. The vast----
    Mrs. Capito. What is the total cost of your project?
    Mr. Portune. $3.1 billion from----
    Mrs. Capito. And only $6 million of that is Federal 
dollars?
    Mr. Portune. At this point, that is correct. Now, we 
don't--we haven't spent all of that. We spent over $400 million 
to date. We have over $800 million in the next 7 years budgeted 
to complete phase 1. Total project cost is $3.1 billion. But a 
very, very small amount has been tied back to Federal 
investment at this point.
    Mrs. Capito. Have you had to raise the rates on your 
individual----
    Mr. Portune. Yes, we have. We have. We went through a 
stretch of double-digit rate increases, starting in 2008. We 
now are in the midst of 5 consecutive years of 8 percent rate 
increases. And if you project it out over the life of the 
system, we are looking to double-digit rate increases again to 
fund the balance of phase 1, all of phase 2.
    In real dollars, the quarterly bill of--your typical 
residential homeowner in Hamilton County today is $167 related 
to their sewer bill. Projecting those rates forward at the end, 
that figure is going to increase to over $2,800, quarterly, in 
order to fund the system. It is just--it is not sustainable.
    Mrs. Capito. Per resident?
    Mr. Portune. That is correct. It is just simply not 
sustainable.
    Mrs. Capito. Wow. That is pretty stark.
    Mr. Portune. It is.
    Mrs. Capito. Yes, right.
    Mr. Portune. It is. We are----
    Mrs. Capito. Thank you.
    Mr. Portune. Thank you.
    Mr. Gibbs. Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to all 
of our witnesses today. I appreciate the hearing.
    I know I live in the Chesapeake Bay watershed community, 
just outside of the city here. We have been under a consent 
decree that started in 2005 for the next 12 years, related to 
storm--to wastewater overflows, sewage overflow. And under that 
decree, it covers 5,400 miles of sewer mains, and an estimated 
$500 million or so of enhancements that are needed to the 
system.
    I have been particularly curious--and it is a separate 
system from--stormwater from sewer. But I have been 
particularly curious about the way in which we can use green 
infrastructure techniques. I was pleased to see the guidance 
issued by the EPA about integrating those techniques into these 
comprehensive plans.
    And--but one of the things we run into, of course, is, you 
know, depending on the region, whatever those techniques are 
that need to be implemented could be slightly different, the 
technologies are--and it is unfortunate that there are 
communities obviously implementing green infrastructure 
technologies, but there is no way for one community--it is 
difficult for one community to learn from another about what 
those technologies are, and sort of an efficiency standpoint.
    I have introduced the Green Infrastructure for Clean Water 
Act of 2011. It is H.R. 2030. And I would love to, given the 
testimony that we have heard today, to really encourage some of 
our Republican colleagues to come on board this, and 
particularly commend it to our chairman, because it is really 
clear--and we have had the support of NACWA and American Rivers 
and others--that already communities across the country are 
trying to figure out the best ways to implement green 
infrastructure so that it is more efficient, cost effective, it 
accounts for maintenance costs that are ongoing for these 
systems that result in consumers like me and others having to 
foot a huge bill for maintenance and enhancements.
    But we need to figure out a more national strategy, looking 
at various regions to make sure that we are doing this in the 
best way possible. And H.R. 2030 creates 3 to 5 centers for 
excellence that are regionally based, to help us come up with 
those strategies.
    And so, in the time remaining, I am particularly interested 
in hearing from a couple of our witnesses about what you know, 
in terms of cost effectiveness and efficiencies in systems.
    And, Mr. Portune, please.
    Mr. Portune. Representative, thank you very much. Mr. 
Chairman, members of the committee. Again, we presented a 
detailed green infrastructure plan that was not approved by EPA 
and the Department of Justice in total, although as testified, 
we were given the opportunity to present alternatives--though 
not approved, so we end up dual designing and double spending, 
if we want to go down that path.
    We estimated that we would save $1 billion off of a total 
price tag of $3.1 billion, in terms of our total project, as 
one example of the kinds of savings that are attainable through 
a green build infrastructure approach.
    Your bill is--I commend you on that, because the Perfect 
Storm Coalition of Communities has also advocated the 
development of demonstration projects--and there is existing 
authority within the Clean Water Act already for that to be 
done; you don't need to amend the Act at all, just simply it is 
a matter of policy, and with oversight of this committee, that 
could be done--we are advocating 15 pilots communities on an 
annual basis for 5 years that would then--they would then 
develop the data necessary that other communities could look 
to, to rely upon as to how effective these alternative 
techniques could be.
    And that would also inform EPA, in terms of their 
enforcement practices, to ensure that you don't have 
inconsistent results, depending upon what region that you are 
in, or again, even within an existing region, depending upon 
who the regulators are that show up on that particular----
    Ms. Edwards. Thank you. In my remaining time, if I could 
hear from American Rivers, I think that would be helpful. And 
we will have a chance to speak with the EPA after this panel as 
well about those things, and some of the considerations they 
have in these green infrastructure projects. Ms. Baer?
    Ms. Baer. Thank you, Representative Edwards, and for your 
leadership on this issue, as well.
    Yes, we have seen from the examples that have come in 
across the country that the cost effectiveness results have 
really borne out so far. And we know, you know, Philadelphia, 
Portland, Seattle are all forecasting, you know, cost 
effectiveness benefits and savings in the billions. But not 
only that, I think they are also showing the multiple benefits 
that is accruing to their communities is really where they are 
also getting additional benefits.
    So, for example, in Philadelphia, in addition to meeting--
forecasting to meet their clean water standards, they are 
seeing more local jobs, cleaner air, less heat-related 
fatalities, less time spent in traffic, cooler temperatures, 
just an array of community benefits that I think aren't 
necessarily counted on our books right now, but really should 
be part of this equation, when we talk about the cost and 
benefits of investing in our communities and clean water, 
simultaneously.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Bucshon, do you have any questions?
    Dr. Bucshon. I do. Thank you, Mr. Chairman. I would like to 
also point out that some of our successes in the United States, 
by comparison to other countries--probably three or 4 years ago 
I read an article in National Geographic or Smithsonian--I 
can't remember the one--talking about Sao Paolo, Brazil, and 
the river that goes through the city and the fact that, for 100 
miles south of the city, nothing lives in the river. Nothing. 
No plants, no animals, nothing.
    So, I do think we have had some successes over the years, 
and we obviously have a challenge now, with upgrading our 
infrastructure. But I think that we have made some progress 
over the years.
    For Mr. Williams the question is, I mean, one of the big, I 
think, complaints that I hear from people, not only as it 
relates to this, as it relates to Federal regulation, is the 
bar keeps changing in a lot of different areas. And not only 
recently, but historically. And I see that, you know, you put 
in this comprehensive wet weather program, spending $350 
million, and then now you have been told to stop discharging 
from your wet weather treatment plants.
    Do you know what the reason--why that was? Were the 
discharges not being treated properly, according to EPA, or--
what was the reason why they moved the bar on you?
    Mr. Williams. There was a couple reasons. One was that the 
discharges from these wet weather facilities that are not the 
main POTW--they are remote facilities that collect the peak 
flows off of our interceptor--they were--sedimentation and 
high-rate disinfection, the intent was to protect public health 
by disinfecting, but they did not meet secondary standards. So 
that was one issue.
    The second issue was that in 2000 the California Toxics 
Rule was promulgated, which deals with trace metals and trace 
organics. And these facilities did not meet the discharge 
limits from that rule.
    Dr. Bucshon. When you first designed your program, though, 
they met--did it meet standards at the current time, when you 
spent this kind of money to build it?
    Mr. Williams. The--when the program was first developed, 
the interpretation of EPA was that these were appropriate 
facilities, and the treatment technology essentially was a best 
available control technology, best practical control 
technology. There was a reinterpretation of that.
    I think the more interesting point is that the facilities 
were--the issue of beneficial use was protection of public 
health. And at the time we built the facilities, and leading up 
to building those, we did studies that showed that the runoff, 
the urban runoff from the stormwater, in terms of metals and 
trace metals and organics, pesticides, that type of thing, was 
a much higher contributor.
    So, this whole issue of integrated planning--you might say, 
in this community, where would you get the biggest bang for 
your buck of limited resources? Would it be to prioritize 
stormwater issues, which are now contributing the majority of 
the load of metals and organics, versus ceasing discharges from 
these treatment facilities that 20 years ago were deemed to be 
the best available control technology and have indeed succeeded 
for what they were designed for?
    Dr. Bucshon. Thank you. Ms. Baer, we keep talking about 
green infrastructure today, and if--I will address this to you 
first. But could somebody describe to me green infrastructure 
that we are talking about? I mean exactly what are we talking 
about, compared to just the regular way to deal with this?
    Because it is interesting to me that, as outlined by Mr. 
Portune, that they proposed so-called green infrastructure 
things, but the EPA actually denied that. So I will let you 
address that, first.
    Ms. Baer. Yes, sure. Thank you. Green infrastructure is 
sort of a suite of approaches or practices, and we would 
consider them processes, either natural techniques or 
engineered approaches that either protect, restore, or sort of 
recreate natural processes. So that would be, for example, 
protecting a wetland or in a city, building a green roof, or 
using permeable pavement to let water naturally soak through or 
capture systems. So, a whole suite of technologies and 
approaches that could be considered green infrastructure, 
broadly.
    And then, I think in recent years we have seen more and 
more communities start to use green infrastructure. And now we 
are incorporating them into their specific permits and plans. 
EPA came out with a memo last year, I believe, officially 
recognizing and encouraging the use of green infrastructure as 
part of stormwater and sewer overflow permits.
    I am not familiar with the situation, the specific 
situation there, but I know recently there have been a number 
of long-term control plans and consent orders for CSOs that 
have actually included an integrated green infrastructure in 
those plans, often on a sort of adaptive management technique. 
So it is certainly something that is being recognized by EPA 
and used more frequently, and has--it should have an increasing 
role.
    Dr. Bucshon. Mr. Chairman, can I have just a second for Mr. 
Portune to comment on a question on that?
    Why do you think your green infrastructure plan was denied 
by EPA? What was the reason?
    Mr. Portune. The primary reason is that the--as I 
understand it--is that the results are not as well understood 
or as guaranteed as you can get with traditional gray-build 
infrastructure. So, from an engineering perspective, it is much 
easier to determine what the end result is going to be of 
constructing a deep tunnel in a particular area to hold water 
back until it can be treated, as opposed to what--the benefit 
that you may get from green roofs or permeable materials or 
disconnecting downspouts from the system, or any combination of 
all of those things.
    So, we were given the opportunity within our consent decree 
to propose alternatives and to more or less develop those, and 
make the case for them by a particular date. But that is where 
the flexibility issue becomes very important. Because while we 
were given that opportunity to propose alternatives, we were 
not given the flexibility of timing in meeting results or 
objectives.
    So, we have to still come up with one alternative, and no 
guarantee that the green will be approved. We end up--if we 
want to pursue that, we spend on both sides of the equation.
    Dr. Bucshon. Thank you. I yield back, Mr. Chairman.
    Mr. Gibbs. Just a couple questions. I want to follow up a 
little bit on that.
    You talk about in your testimony, silos. You got 
enforcement over here, you got other areas of the EPA. I guess 
I am concerned.
    The stormwater regulations: I mean it is pretty clear--I 
think it has been completely clear in the testimony that if we 
can get that water out of the regular sanitary system, then we 
will solve a lot of problems.
    Now, in issues like when you have retention basins for 
storm and--do you see new regulations on the stormwater or not 
being able to talk to another part of the EPA? What would you 
say that is a problem? Or you were talking about the 
flexibility. You might want to expound on that, because I am a 
little concerned about proposed new stormwater regulations, and 
how it affects you to get to what we need to get to, and give 
you the flexibility.
    So, Mr. Portune?
    Mr. Portune. I guess I will begin. I--in--speaking in the 
main, a broad, comprehensive approach that allows local 
communities the ability to--or the flexibility to--in a pool of 
limited resources to make investment decisions based upon what 
results can be accomplished the best quicker and cheaper.
    No one wants to backslide on the benefits of the Clean 
Water Act. My citizens want to live in a clean environment. 
They don't want polluted streams or rivers or anything like 
that. But we also have to recognize the affordability question 
is very important. And we have to balance the tension between 
doing everything and rigid enforcement versus what my citizens 
can actually afford to do, and give local governments the 
flexibility to be able to make those decisions and to place 
those investment dollars in the wisest way, based upon local 
needs and interests and affordability.
    So, looking at it comprehensively, I would just simply add, 
Mr. Chairman, that it--we haven't touched upon it much today, 
but we are very concerned also about the fact that we do know 
that other regulations are being contemplated. And what happens 
when we spend all of this money dealing with effluent and fecal 
coliform levels, and things of that nature, and then all of a 
sudden there are new regulations that require us to get all of 
the pharmaceuticals and oils and gases and other toxins, and we 
have no money? And how do we answer that question of our 
citizens?
    So, would certainly urge Congress to weigh in on these 
issues to ensure that there is broad oversight flexibility on a 
local level, and that we be given the opportunity to apply our 
dollars in the best way.
    Mr. Gibbs. Mr. Reardon?
    Mr. Reardon. Just to add, I think, from my perspective, if 
we continue down the path of consent decrees and an adversarial 
relationship, it is very difficult to get the flexibility and 
the ongoing dialogue and the changes of circumstances when 
cities have to come back and constantly ask for a consent 
decree to be reopened. We haven't reached that point yet; we 
are in the midst of it.
    But this--you all know when you get into that adversarial 
relationship, it creates barriers, effectively, to being 
flexible and innovative and considering the reasonableness of 
issues. And so I just would continue to encourage you all to 
think about a different way of doing business with us.
    We, as mayors of cities, want to work with you. We want to 
work with the EPA. We want to find solutions. That is what we 
do every day, is find out how to move forward. And a different 
atmosphere to get that done is----
    Mr. Gibbs. As we saw in a lot of testimony, the consent 
decree doesn't help you in the media and the general public, so 
it adds fuel to the adversarial relationship.
    Yes, Mr. Suttle?
    Mr. Suttle. I want to answer your question and the previous 
congressman's questions with this thought process. Go back to 
what I said in my testimony of the 4-2-20 rule. That is the way 
the policies are put.
    The four relates to four bypasses per year to the river. So 
if my city or any city here comes up with 1 to 10 green 
solutions, how do you measure that against 4 bypasses in--per 
year? It doesn't compute. We are looking at the wrong 
statistics. We need to be looking at the quality of what is 
going into the river. And if we are doing 1 to 10 green 
solutions or new technology solutions, what difference is that 
really making in the qualitative flow this year, versus 5 years 
from now?
    We are not talking about the realities of life. And we have 
got to get away from this hard fast 4-2-20 concept to really 
measuring performance.
    Mr. Gibbs. OK. Mr. Baker?
    Mr. Baker. Just one comment as far as statutory revisions, 
or what we can do to further this concept, that we do have some 
institutional barriers. When we talk about silos that maybe EPA 
are in, we must recognize States are in their own silos. In my 
agency I have stormwater permitting folks, I have municipal 
wastewater permitting folks, I have groundwater folks, and I 
have standards folks. And we need to communicate. And EPA, at 
its highest level, needs to communicate within its different 
offices.
    In Utah, if I was to talk to our 10 largest permitees, 
there is only one municipality among them. The rest are 
singular, special service districts that have nothing to do 
with stormwater. They don't manage a stormwater system. Salt 
Lake City is the exception to that. Otherwise the major 
permittees don't care about stormwater issues. They care about 
their municipal wastewater permit.
    And so, under a holistic approach, if we can look within 
the watershed and bring all the players and stakeholders to the 
table to talk about what we jointly need to do, that will be a 
barrier we will need to break down.
    Mr. Gibbs. Yes. I am out of time here, but I just wanted to 
comment on the permits. Typically, the permits are 5 years, 
correct?
    So, I am convinced that the way to do this is through the 
permitting process and not the consent decrees, and give you 
the flexibility. And maybe one thing we should be thinking 
about is maybe a concept of a conditional permit that would go 
on, say, ``Here is your plan,'' and hopefully it is a 
comprehensive integrated plan for the watershed, but it is 
conditional on meeting certain benchmarks that you agree on 
during the permitting process. Would that be something that 
would be a concept that would be favorable? OK. Yes?
    Mr. Baker. I would say, though, that hasn't been a huge 
impediment. Even though we have got a 10-year plan that needs 
to be implemented, having a 5-year permit cycle has not been an 
impediment in my State. I don't know if we are an outlier in 
that regard.
    We have used a consent decree or a compliance schedule 
within the permit itself, and had that schedule roll over from 
permit to permit, if necessary, because of the expanded 
timeframe.
    Mr. Gibbs. I guess I just raised the question because 
changes in elected officials at every level, public policy 
changes. You know what that does for certainty.
    Yes, Mr. Williams?
    Mr. Williams. Yes, just at the dialogue yesterday that was 
an issue that engendered a lot of discussion. There was a lot 
of concern about that. The fact that if everyone is holding 
hands and saying, ``Yes, this is OK,'' rolling things over, but 
every time you open up a permit and it goes forward into a 
renewal, there is opportunities to derail whatever it was that 
you had in place.
    Mr. Gibbs. OK. Mr. Bishop, do you have any questions?
    Mr. Bishop. I have a couple of questions, Mr. Chairman. I 
thank you. But before I get to my questions, let me just do a 
little housekeeping.
    I request unanimous consent to enter into the record two 
statements, one from Congresswoman Eddie Bernice Johnson, and 
one from Congressman Gerry Connolly.
    Mr. Gibbs. So ordered.
    [Please see the table of contents section entitled, 
``Prepared Statements Submitted by Members of Congress'' for 
the statements of Hon. Eddie Bernice Johnson and Hon. Gerald E. 
Connolly.]
    Mr. Bishop. And I also ask unanimous consent to enter into 
the record information regarding the bipartisan bill that I 
have filed, along with Mr. LaTourette, H.R. 3145, which I made 
reference to a couple times.
    Mr. Gibbs. So ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gibbs. So ordered.
    Mr. Bishop. A couple things. Mr. Portune, you entered into 
or your community entered into the consent agreement that you 
have made reference to several times in 2004. Is that correct?
    Mr. Portune. It was originally entered into at that point. 
Subsequent to that we were sued by the Sierra Club, and that 
resulted in an amended and restated consent decree that was 
then ultimately approved after that.
    Mr. Bishop. When?
    Mr. Portune. I'm sorry, sir. I don't----
    Mr. Bishop. Let me----
    Mr. Portune. If I could--I want to say 2009, but I want to 
be precise on the date, and----
    Mr. Bishop. Let me--can I just ask what I really want to 
focus in on?
    Mr. Portune. Yes, sir.
    Mr. Bishop. You indicated that the consent decree that you 
entered into in 2004 suggested that you could propose 
alternative technologies, and you proposed a set of green 
technologies that would have saved you about $1 billion. Is 
that right?
    Mr. Portune. That is a part of the amended and restated 
decree, not the original decree in 2004----
    Mr. Bishop. OK. So that amended and restated decree, which 
was pursuant to a legal action by the Sierra Club, was entered 
into in 2009. Is that correct?
    Mr. Portune. That is my recollection, sir. But I will 
supplement you with the exact date.
    Mr. Bishop. OK. The reason I am asking is it seems to me 
that there was--communities have been reluctant, for 
understandable reasons, to pursue green technologies because 
they had not been widely used. And thus, the evaluation 
mechanisms were not as well developed as they could have been.
    One of the things that the Recovery Act--the much maligned 
Recovery Act--although, Mr. Strickland, I was interested to 
hear you say that--did I hear you say 3 ships are being built 
at a cost of $150 million?
    Mr. Strickland. Correct.
    Mr. Bishop. I am assuming one or two people are working on 
building those ships. Am I right about that?
    Mr. Strickland. Probably a little bit more.
    Mr. Bishop. OK, thanks. Just wanted to be clear. There was 
a required set-aside in the monies that went to the State 
Revolving Fund of 20 percent for green technologies.
    And my understanding--Ms. Baer, maybe you can help me with 
this--my understanding is that every State met that required 
set-aside. Am I right about that?
    Ms. Baer. That is correct. Every State met or even exceeded 
that amount.
    Mr. Bishop. So there is now an increased usage of these 
technologies and modalities, which presumably would provide a 
greater frame of reference to evaluate their effectiveness. Am 
I right about that?
    Ms. Baer. Yes, I think that is right. Both the States and 
the financing authorities, and the States are now more 
comfortable lending or granting out for those approaches, and 
the demand for those have been really high. In fact, there was 
a backlog of projects during that time period.
    Mr. Bishop. OK. Because this strikes me as a very positive 
development. That, the ARRA requirement, coupled with the 
October 27th memorandum from the EPA, which clearly embraces 
green technologies--and I would say, Mr. Suttle, you make the 
point that we need to live in the real world, and we have to 
accept the hard realities of life. And I think you are 
absolutely right. And it seems to me that the EPA's memorandum 
having to do with both integrated approaches and green 
technologies is the EPA's embrace of that very hard-headed 
assessment, which is that we have to accept the hard realities 
of life.
    I mean I think we are on a good path here, going forward. 
And I am hopeful that the use of green technologies can both be 
more cost effective and become more broadly accepted, so that 
the EPA has a sufficient database to assess whether or not they 
actually work. And perhaps if, you know, the consent decree had 
been--you know, maybe if you were entering into it now, perhaps 
we would have had a different outcome. I don't know.
    Mr. Portune. If I may?
    Mr. Bishop. Yes, please.
    Mr. Portune. Thank you. First of all, just a footnote. Our 
decree was approved by the parties in June of 2009.
    Mr. Bishop. OK. Thank you.
    Mr. Portune. The court, however, didn't give its approval 
until 2010. So that is a little--off on the dates. I am sorry, 
sir.
    Mr. Bishop. OK.
    Mr. Portune. But it was 2009 when the parties agreed. I 
think that you are certainly on to something there. And it 
again is a reason why the idea of having pilot demonstration 
project communities may be one important for the committee to 
consider. They could be looked to to develop the data to a 
sufficient degree that it is then universally accepted and 
applied across the board. That is one of the reasons why our 
coalition of communities has focused so much on a demonstration 
project component of moving forward with a flexible approach 
and congressional oversight.
    Mr. Bishop. OK. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Gibbs. Anybody else have any more questions? Go ahead.
    Mrs. Napolitano. I didn't know I was next. Thank you, Mr. 
Chair.
    Several of you have indicated the need for private 
investment. But have anybody--does anybody have any suggestions 
how to encourage that investment in water protection, 
development, and management? And what would it take to 
encourage that? Has anybody been able to attract it? And has 
that been part of the dialogue for the League of Cities and 
Conference of Mayors and the counties?
    Mr. Strickland. I will take a first shot at this. One way 
to attract private investment is certainly to work through 
local codes. And it is part of our green infrastructure plan, 
going forward, to require new development, redevelopment, to 
manage stormwater on site. So that is certainly one way to go 
about it. We estimate over the 20-year life of our plan, that 
will attract some $900 million in green infrastructure 
investments.
    Mrs. Napolitano. Have you found any such investors yet?
    Mr. Strickland. It will happen developer by developer. So 
these rules actually haven't been finalized. They will be 
finalized probably this month. And when development cycle picks 
up, that will be built into the cost of new buildings and 
redevelopment.
    One reason we are--we like this approach is at that time, 
when you are building a new roof and you want to build a green 
roof or what have you, you can build in technology that will be 
about .3 to 1.3 percent of overall development costs. So it is 
cheap to do it when you are building something new.
    Mrs. Napolitano. Anybody else?
    Ms. Baer. Yes. I would add briefly that we have seen in 
places that have adopted fee and credit systems to charge for 
partial base stormwater runoffs, and Philadelphia, where they 
have a charge for--based on how much surface you have that is 
creating the pollution source. But then they give a full credit 
to people if they are able to retain water on site, which is 
most cost-effectively done with green infrastructure.
    This has then created a market, so there is a whole suite 
of contractors who build, install, maintain green roofs who are 
now benefitting from that. And in discussions we have had with 
people, people are very excited about those business 
opportunities. And so that is a way to create sort of private 
market for investment, by having a strong local code that 
improves this.
    And so, we have heard from other folks--small business in 
Maryland, for example, that--the regulations in that State for 
strong protected stormwater standards, encourage environmental 
site design. One small business owner told us he has quadrupled 
his employees because of that. So I think there is opportunity 
there.
    Mrs. Napolitano. So there is a market, but there is no 
concerted effort to try to identify for major projects, or to 
be able to help communities know where to go and find these 
investors is--am I right? Anybody? Yes, sir?
    Mr. Suttle. I was told you asked about private investors 
coming in to the infrastructure market. U.S. Conference of 
Mayors does support having a mechanism in place where private 
investments can be done through some type of a financing 
mechanism. But we are going to need some changes in the tax 
code to incentivize that.
    If you are inferring that the private industries can come 
in too and take over treatment plants and other water systems--
--
    Mrs. Napolitano. No, no, sir. Not at all.
    Mr. Suttle. OK.
    Mrs. Napolitano. I am referring strictly to----
    Mr. Suttle. To have them come in as investors, there needs 
to be a reason for them to do that, and they have to have some 
incentive from the tax sides. Because they are looking at it as 
an investment.
    Mrs. Napolitano. Right. Well, bonds usually are the way 
many communities go to be able to do major projects. And that, 
to me, would be something that would be attractive to Wall 
Street investors and others. Yes? No?
    Mr. Suttle. Well, I think it would. But we need to look at 
it in a bigger picture of how those investors think when they 
buy those bonds.
    Mrs. Napolitano. Correct, and that is something that should 
be--along with the other steps that we are taking, be as 
another option.
    Mr. Suttle. The point is well taken. It also gets us back 
into this debt issue, and that is how much debt can we absorb 
on the side of the government, the city, or the sewer agency, 
and how much is going to come over here and be investors from 
another----
    Mrs. Napolitano. I would really love to see the agencies 
move in that direction to start maybe finding out where these 
opportunities could be found.
    Mr. Suttle, you mentioned your concerns that businesses 
would leave Omaha if the water and sewage rates were increased. 
Do you believe those businesses will stay in Omaha if the 
sewage overflows into the river, or if the quality of water was 
compromised? Do you know any businesses that might have left 
because of the increase to the cost of clean water?
    Mr. Suttle. Well, I have 11 industries that have kind of 
organized and we have been dealing with now for over a year. We 
had an impasse some 4 weeks ago, and I now have----
    Mrs. Napolitano. OK. I need to cut it, sir. I am running 
out of----
    Mr. Suttle. Yes. I now have lawyers in my office, because 
they are on their way to sue.
    One of those industries is going to sue--and I made 
reference to it--its bill will go up here, starting next year. 
And it is on its course to a $1.8 billion annual----
    Mrs. Napolitano. Do----
    Mr. Suttle. This is all overhead cost.
    Mrs. Napolitano. Yes.
    Mr. Suttle. And they cannot absorb it. I don't want to be 
spending my time trying to figure out how to keep these 11 
industries in Omaha. I want to spend my time on getting 11 new 
industries to Omaha.
    Mrs. Napolitano. Understood, sir. Thank you. Mr. Chairman, 
one last question.
    Have any of you tried to educate your Members of Congress 
on the reality of issues when it deals with your entities? Any 
of you?
    Mr. Portune. Yes.
    Mrs. Napolitano. You have? And staff? Because staff is 
important. It is critical. Because if we don't understand the 
issue, and then you come and try to pass a bill, that is not 
helpful to us. So may I suggest you continue educating them? 
Because this is where you will find the support that you will 
need.
    Thank you, Mr. Chair.
    Mr. Gibbs. Thank you. I just wanted to conclude here. On 
your last statement you talked about the 11 businesses that 
might be leaving Omaha, and their cost, and the cost that rate 
payers--we have heard that common theme.
    The irony of it is if the rates go up so high you are going 
to lose population in the urban centers, and you are going to 
have less resources to deal with this issue. You are going to 
push industry probably offshore, but you are also going to push 
residents out in the rural areas, and that creates other 
problems. So, I think the irony of the whole thing is it just 
kind of comes and goes around.
    But I want to thank you for coming in today. I think we had 
a great discussion, and it was very informative and helpful as 
we move forward, because it is obvious that we are at a point 
where we have got to change the culture and how we kind of 
address these issues and give you the flexibility, because you 
are all dedicated to make sure we have clean water for your 
communities and across America. So again, thank you for being 
here.
    And I am going to excuse you for the--well, stand at ease 
so the next panel will have a chance to get their seats. But 
you are more than welcome to stay and listen to the next panel. 
Thank you. We will be at ease for just a couple minutes.
    At this time I would like to welcome Ms. Stoner. Ms. Stoner 
is the acting assistant administrator for water of the United 
States Environmental Protection Agency. And I think Ms. Giles 
must have just stepped out for a moment. But I think, Ms. 
Stoner, we can probably just go ahead with your opening 
statement.
    Thank you.

 TESTIMONY OF NANCY K. STONER, ACTING ASSISTANT ADMINISTRATOR, 
OFFICE OF WATER, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; 
     AND CYNTHIA GILES, ASSISTANT ADMINISTRATOR, OFFICE OF 
      ENFORCEMENT AND COMPLIANCE ASSURANCE, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Stoner. Thank you, Mr. Chairman, Ranking Member Bishop. 
It is a pleasure to be back here again before the subcommittee, 
and to talk with you, along with Assistant Administrator Giles, 
who will join me in a moment, to discuss our efforts at EPA to 
improve water quality for communities nationwide through 
integrated municipal stormwater and wastewater planning.
    It is actually great to see that many of the ideas that we 
are promoting in terms of integration, prioritization, and 
green infrastructure have so much support from the first panel 
and all the communities that they represent and the 
organizations that they represent.
    We have come a long way in improving water quality in the 
U.S. public health and the environment since Congress enacted 
the Clean Water Act almost 40 years ago. We have significantly 
reduced pollution entering streams, lakes, bays, and other 
waters nationwide, and our Nation's public water systems 
provide water that meets national health-based standards for 
contaminants in drinking water in nearly all cases.
    However, there is significant drinking water and water 
pollution challenges that remain. Population growth, increases 
in impervious services, aging infrastructure, complex water 
quality issues, and the current economic challenges are 
stressing implementation of infrastructure and programs needed 
to fully attain Clean Water Act goals, and we certainly have 
heard about that this morning.
    Many of our State and local government partners find 
themselves facing difficult financial conditions, and we 
recognize these challenges. EPA is working with State and local 
governments to develop and implement new approaches that will 
achieve water quality goals at lower cost, while creating jobs 
and strengthening the economy.
    So we view these challenges not just as challenges, but 
also as an opportunity, an opportunity for developing new 
products, new services, better ways of doing things. And that 
is what we are talking about today.
    In the past, EPA, States, and municipalities have often 
focused on each Clean Water Act requirement individually, 
rather than managing their various water quality investments as 
a single coordinated effort. Such an approach may constrain a 
community's ability to address its most serious water quality 
issues in a cost-effective manner. And so, we believe a new 
commitment to integrated water quality planning and management 
offers municipalities an opportunity to meet Clean Water Act 
requirements in a more cost-effective manner to spend their 
dollars better, and in a way that achieves the highest priority 
goals more quickly.
    To further reinforce this commitment, in October Assistant 
Administrator Giles and I signed a memo to EPA's 10 regional 
offices, emphasizing the Agency's commitment to integrated 
approaches to managing municipal stormwater and wastewater. The 
approach would provide interested municipalities with 
opportunities to develop a comprehensive plan that balances 
competing Clean Water Act requirements, allows municipalities 
to focus their resources on the most pressing public health and 
environmental protection issues.
    Let me briefly describe for you what the integrated 
planning approach is and is not.
    First, the integrated approach is voluntary, not mandatory. 
The development of integrated plans is best done by 
municipalities themselves, not by EPA. But we stand willing to 
work with States, municipalities, and partners to help them 
develop these plans.
    Second, integrated plans should be tailored to the needs of 
the community, and can include the innovative techniques that 
we have been talking about today. The EPA's policies provide 
flexibility for EPA and States to evaluate a municipality's 
financial capacity, and to design solutions that meet the 
community's needs, including all the green infrastructure 
techniques.
    Third, integrated planning approach does not entail 
lowering existing Clean Water Act standards. And we have heard 
a lot of support for that today. The approach takes advantage 
of the flexibilities in existing EPA regulations, policies, and 
guidance, including the potential for long-term compliance 
schedules to allow municipalities to sequence implementation of 
their Clean Water Act obligations to protect water quality and 
public health at a reduced cost.
    Finally, this effort is still under development. We are 
currently developing a framework document. We will fully 
describe our initial thoughts on the integrated planning 
concept. This document will be informed by significant input 
from States, communities, and other stakeholders.
    Cynthia and I look forward to working with the 
subcommittee, our State colleagues, cities, counties, 
utilities, and many other partners, stakeholders, and citizens, 
and we are committed to listening carefully to the needs of 
States and municipalities as we work together to most 
effectively protect water quality and public health.
    Mr. Gibbs. I would like to welcome Ms. Giles. Ms. Giles is 
the assistant administrator of the office of enforcement and 
compliance assurance of the U.S. EPA. Welcome.
    Ms. Giles. Thank you very much, Mr. Chairman, for giving me 
the opportunity to make a few comments. I am here--happy to be 
here today, along with my colleague, Nancy Stoner, to talk 
about the collaboration between EPA's headquarter's and 
regions' permitting and enforcement programs to achieve better 
water quality through integrated municipal stormwater and 
wastewater planning.
    We have made a lot of progress in clean water over the last 
40 years, as has been mentioned here today. Investments in 
clean water treatment and infrastructure, as well as good work 
in permitting and enforcement at the State and the Federal 
level have all contributed to these successes. Governments at 
all levels, as we heard here today, as well as wastewater 
utilities, are in agreement that we need to maintain the 
existing standards to protect people's health and to protect 
clean water under the Clean Water Act.
    What we are working on now, and what we are discussing here 
today are ways we can continue to make progress on the goal we 
all share, cleaner water, by making smart choices about 
priorities, taking advantage of innovations, and making sure 
that the most important work is done first. That is what many 
communities have been asking us to do, and that is the effort 
we have launched, working with States, utilities, and 
communities across the country.
    This effort is not about expanding enforcement. Sometimes 
an enforcement agreement is a helpful way to address the many 
complex issues that communities face in addressing stormwater 
and extensive wastewater systems. Often a permit is a useful 
mechanism to accomplish those goals.
    One of the topics that is on the table in this effort is 
the best way to get a community on the path towards cleaner 
water that sets priorities and sequences the work to get the 
most benefits upfront. We are open to everyone's ideas on this 
subject.
    We also agree that when new approaches are identified and 
that can make more progress or achieve the goals at a lower 
cost, then it is appropriate to make changes in the existing 
agreements. We have done that on a number of agreements 
recently, and that continues to be an approach that makes sense 
where better answers are identified.
    EPA has been, and we will continue to work with all the 
interested parties to better use the existing flexibilities to 
reach these common goals.
    I am happy to answer any questions you may have.
    Mr. Gibbs. Thank you. I guess I will start off with the 
first questions.
    First of all, I want to appreciate for you sitting through 
the last panel to hear their testimony and their responses to 
the questions. And it is pretty obvious to me--I hope it was to 
you--that, you know, the concern about enforcement versus 
permitting, or consent decrees versus permitting. And from your 
testimony, from both of you, the gist I get from you just 
saying that, you want to move EPA towards the more permitting 
concept, versus consent decrees and enforcement? Is that a 
correct statement?
    Ms. Giles. Well, I think, Mr. Chairman, that what we are 
saying is that the right option for each community is 
definitely an issue that is on the table. We are open to both 
options. We think there are some advantages in permits, and 
there can be sometimes advantages to pursuing it through 
enforcement.
    You have heard many of the people on the prior panel say 
that one of the things these communities are looking for is 
certainty and a schedule over the long term. Sometimes a 
consent decree is a good vehicle for providing that degree of 
certainty. However, even within an enforcement document there 
are plenty of flexibilities that we have, and have been 
exercising.
    I would note that the Mayor Suttle, representing the 
Conference of Mayors, made quick reference to the fact that 
they have noticed recently greater degrees of flexibility by 
EPA in working with communities in consent decrees. I am 
pleased to hear that they have noticed that. That is something 
that we have been really working on, and we can continue in 
this effort to do that.
    Mr. Gibbs. Well, to carry that further, would you say that 
enforcement actions would be the last resort, and permitting 
would be the first priority?
    Ms. Giles. I think the answer will vary by community. I 
would say that where we have longstanding issues in a 
community, especially where there is significant health or 
environmental threats involved, and there has been longstanding 
violations, enforcement, of course, remains an option on the 
table.
    But we are committed to and have been working with 
communities on--and are going to continue to do so--committed 
to having flexibilities in the system----
    Mr. Gibbs. Yes, well, let's talk about communities that are 
currently under a consent decree. Would they have the option, 
the flexibility, to go this other route? Or would they--or they 
would not have that option?
    Ms. Giles. Yes, they would have that option, and we have--
there is--let me give you one recent example where the city of 
Indianapolis, who is under a consent decree, came to us and 
said, ``We have a better way to achieve the clean water results 
that we are trying to achieve here, and we think it will save 
us money.'' We looked at that, we agreed, we amended the 
consent agreement. And I think that everyone has been very 
pleased that we have been able to find cheaper, better 
solutions to these problems.
    Mr. Gibbs. Ms. Stoner, do you think the current permitting 
process allows enough flexibility? Or do you need more 
flexibility to say, a municipality that adopts the integrated 
plan, and maybe it is going to take 10 or 15 years--do you need 
a different type of a permit schedule, or do you have that 
flexibility under current law, or do you have any limitations 
that we need to address?
    Ms. Stoner. We think we have a lot of flexibility now, 
including to have compliance schedules that are longer for a 
lot of different elements that you would find in a Clean Water 
Act permit. I think there is improvement to be made, innovation 
to be made, in terms of watershed permits, in terms of multi-
agency permits--for example, having stormwater and wastewater 
under the same permit. I think there are things that we can do. 
We feel like we can do those things, most of those things that 
need to be done, under existing law.
    Keep in mind, though, Mr. Chairman, that States run 46 of 
the programs. So it is very key to think about how States will 
work in this process. A permitting process will be largely 
State-run, and so that is why we are working very closely with 
States, to explore the flexibilities they have under their 
State water quality standards and their permitting programs.
    Mr. Gibbs. OK, because I am just concerned if a 
municipality adopts the plan and everybody agrees on the goals, 
but it is going to take maybe 15 years to get there, and they 
set their priorities, that halfway through, when things change 
and agendas change, that they might be reluctant to move 
forward that way if they don't have the long-term assurance 
that, you know, they have got some protections.
    Ms. Stoner. We think we can find those mechanisms to 
provide longer term schedules. But the other benefit that you 
actually get from permitting is that they are--those permits 
are reissued every 5 years. So, as circumstances change, and 
innovation--which we spent a lot of time talking about today--
as new techniques are developed, new products are available, 
they can be incorporated into the next permit.
    So, the adaptive management approach works very well with 
permitting.
    Mr. Gibbs. Now--just my last question, because I am out of 
time. Does the permit give the municipalities, the local 
governments, assurances from third-party lawsuits, some 
protection versus--because my understanding of the consent 
decrees, those are sometimes issued just to protect the local 
municipality from third-party lawsuits.
    Ms. Stoner. Well, let me start, and then let me ask my 
colleague to join me.
    So there is a permit shield provision in the Clean Water 
Act. So an entity that is in compliance with its clean water 
permit is in compliance with the law, and is shielded from 
third-party lawsuits.
    Mr. Gibbs. Even though they might not be in compliance 
right away, but they would be in compliance to what the permit 
sets.
    Ms. Stoner. The scope of the obligation----
    Mr. Gibbs. Yes.
    Ms. Stoner [continuing]. Is what the permit says that it 
is. Yes.
    Mr. Gibbs. Oh, OK.
    Ms. Stoner. That is right.
    Mr. Gibbs. OK, that is very helpful.
    Ms. Giles. And consent decree is another vehicle that can 
lay out a long-term course of schedule--setting priorities and 
schedules that is available to deal with some of these 
questions. And it is the case that where the Federal Government 
has entered into a Federal court consent decree, that that sets 
the standard that citizen groups would expect to hold 
municipalities to.
    Mr. Gibbs. OK. Mr. Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman. Thank you. 
Thank you both.
    You know, we frequently hear the EPA described as taking a 
one-size-fits-all approach. And yet, Ms. Giles, I just heard 
you twice in response to questions from the chairman, talk 
about finding the right option for the community, which seems 
to suggest that you don't take a one-size-fits-all approach.
    So, could you, A, respond to the concern that the EPA takes 
a one-size-fits-all approach, and do so--if it is not true, 
which, presumably, it is not, given your testimony, can you 
give us some examples of how the EPA is--presents flexible 
responses and flexible plans for communities that relate to 
those specific communities?
    Ms. Giles. Yes. First let me agree, that we understand and 
completely hear these communities, that their circumstances 
differ and the scope of the problems that they are facing 
varies. So you heard the commissioner from New York talk about 
that CSOs are their principal issue and they need to address 
those. Other communities have stormwater problems that are 
dominant over CSO issues. Other communities have separated 
storm-sewer issues.
    We try to craft our solution that--in a way that is 
tailored to the issues that the community is facing. And part 
of this integrated approach is to make sure we are doing that, 
we are looking across the spectrum of Clean Water Act 
obligations and concerns that the community is facing, and 
tailor our solution to those. Let me give you one example, you 
asked for an example.
    Mr. Bishop. Please.
    Ms. Giles. We recently reached agreement with the city of 
Cleveland's system. And they wanted to come forward with a lot 
of green infrastructure solutions, which we embraced in our 
agreement with the city. And it was very much this adaptive 
management learn-by-doing approach that we have been talking 
about here, where they were going to take some blighted areas 
in the city and convert those to places that will capture 
stormwater, providing clean water benefits, reduced stormwater, 
and revitalization of the communities where those green spaces 
would be located.
    Mr. Bishop. OK. Thank you very much. And Ms. Stoner, I 
just--I think you answered this, but I think it is so 
important, so I just want to make sure we are all clear.
    The flexibility, if you will, that is embodied in the 
October memorandum, I think most everyone has welcomed that. We 
have heard people--and it is clear that this is flexibility 
that would be applied prospectively.
    We have also heard people express the opinion, the concern, 
that this flexibility also ought to be available to communities 
that are currently operating under consent decrees.
    Just be clear. Does the EPA currently provide or will it 
provide that kind of flexibility to communities that are 
currently operating under consent decrees?
    Ms. Stoner. Yes. We already have done it in a number of 
cases, as Cynthia mentioned. And we are open to better ideas 
that will achieve more environmental protection cost-
effectively for these communities, even for communities that 
are currently under consent decrees.
    Mr. Bishop. OK. Ms. Giles?
    Ms. Giles. I agree.
    Mr. Bishop. OK. All right. Thank you both very much. I 
yield back.
    Mr. Gibbs. Representative----
    Mrs. Napolitano. Thank you, Mr. Chair. Welcome, 
Administrator Stoner, and thank you for being diligent in your 
effort to protect and help our water resources. I can tell you 
that we have had multiple hearings in the past on EPA, and it 
is not always being treated as kindly. And I tell you EPA, my 
region in San Francisco, has always been very responsive to my 
councils of government. And thank you for that.
    Ms. Stoner. Great.
    Mrs. Napolitano. And then I also heard that there is always 
new regs coming up. And maybe very minimally. Can you shed 
light on why? Because I know there is new pollutants being 
found that--they endanger health and endanger marine life, 
endanger agriculture, E. coli, et cetera, et cetera. Would you 
elaborate, just minimally? Because I have other questions.
    Ms. Stoner. Yes. The first point I would like to make is 
that most of the obligations that we have been talking about 
today are not new. They are actually very old obligations that 
came into effect in the 1970s or the 1980s, with the combined 
sewer overflow policy. That is 1994. So these are actually 
longstanding obligations, not new obligations.
    It is certainly true that as we identify new problems, we 
do try to find new ways to address them. There was a question 
about stormwater regulations. Those are not done yet. But what 
we are contemplating is actually mechanisms that would help 
municipalities like the ones that we saw here today address 
their stormwater problems. That is what we are working on.
    Mrs. Napolitano. There are--with the coordination of--in 
fact, in my district, in LA County, water is used in many areas 
17 times. It is re-used, recycled, which requires coordination 
of county, local, State, and Federal agencies. And what you are 
proposing is common sense, to evaluate waste, integrate, and 
work together.
    There are 28 Federal agencies alone dealing with water, 
Federal agencies, most often in separate silos of regulation 
and mission. Do you see this as a--the proposed integration 
effort as a tool to integrate across the various agencies, or 
do you see this primarily an effort to clean up things within 
EPA?
    And then, as a followup to that, do you see this effort as 
a model for other water programs in EPA?
    Ms. Stoner. This is more of an integration effort among 
levels of government, the Federal, State, and local, than it is 
across. But one of the main ways in which we fund green 
infrastructure in communities across the U.S. is by actually 
putting together funding opportunities from different Federal 
agencies. So HUD has money, DOT has money, USDA has money----
    Mrs. Napolitano. OK, OK----
    Ms. Stoner [continuing]. EPA has--so we put it all together 
to achieve a package that will achieve that community----
    Mrs. Napolitano. So you do talk to each other.
    Ms. Stoner. Absolutely.
    Mrs. Napolitano. OK.
    Ms. Stoner. And we are working closely together, 
particularly on that kind of initiative----
    Mrs. Napolitano. Is the new technology part of it, 
addressing the new technology, the green technology, the 
methodology, et cetera?
    Ms. Stoner. Absolutely.
    Mrs. Napolitano. OK. Then another question that I have is 
several individuals have spoken to the need for private 
investments. From your perspective, what will it take to 
convince private investors to put up money to support water 
infrastructure and water re-use, recycling, et cetera? And have 
you helped, do you know if you can help, or how do we address 
this?
    Ms. Stoner. Well, I think there is lots of good information 
in reports coming out about what a good investment it is, 
particularly water and wastewater infrastructure, how many jobs 
are created, how many different kinds of jobs are created, and 
how it is beneficial for U.S. manufacturers, how we have a 
positive trade surplus for water and wastewater services. There 
is all kinds of information out there that I think the savvy 
investor is already on to, in terms of this investment. 
Hopefully more will be on over time.
    Mrs. Napolitano. Thank you. There are so very many other 
questions I would have, and I would put them into writing 
later, Mr. Chair. I yield back.
    Mr. Gibbs. Ms. Edwards. Do you have questions?
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to both 
of you also for your patience.
    You know, on the earlier panel, when I described ``our 
consent decree,'' I don't want to suggest at all that it is a 
bad idea for us to have entered into a consent decree covering 
the Washington Suburban Sanitary Commission, which, you know, 
has a responsibility for providing clean water for over 2 
million of our residents. In fact, I actually think that the 
implementation and the existence of the consent decree actually 
helped us to move forward in a way that we may not have under 
other circumstances.
    Before this consent decree in the Metropolitan Washington 
suburbs, we had 4.8 million gallons of sewer overflow in 2004. 
After the consent decree in 2010 we had 581,000 gallons of 
overflow, and there has been a lot of work that has gone into 
the system and into the coordination that has taken place in 
the jurisdiction around these issues. And so I think the 
consent decree, in fact, put us on a long-term pathway for 
dealing with these issues. That may work in some communities 
and other things may work in other places.
    I note also that we--about a quarter of our overflow is 
still related to fats, oils, and grease, stuff that actually 
should be dealt with with a lot of public education.
    But I want to turn my attention to the idea of green 
infrastructure, because I also note that in the $500 million or 
so of enhancements in the WSSC system, under the consent decree 
about a third of that is dedicated to green infrastructure. And 
so it seemed to be--at least in our working locally--that EPA, 
our department of the environment, and the utility were able to 
come up with a strategy that also incorporated green 
infrastructure.
    And so, I want to give you an opportunity, Ms. Stoner, to 
comment on the kinds of things that EPA is looking at when it 
considers green infrastructure as part of these plans, and also 
give you an opportunity to give us some thoughts about the 
importance of creating, at least regionally, as I have thought 
about regionally, these centers for excellence for developing 
green infrastructure techniques and technologies, and the 
benefit that would have to communities.
    Ms. Stoner. Thank you. But both of those questions are 
related, because green infrastructure is an evolving field. So 
we know very well already what a lot of green infrastructure 
techniques can do at the site level. What we are working 
toward--and this is really important for these consent decrees 
and for permitting--is to see what they can do at a sewer shed 
level, at a watershed level.
    And so, that is where the technology is evolving, and the 
research is evolving. And so that is something that communities 
can share with each other, is what techniques they are using, 
how they are working, how they are measuring results. And that 
will help us move forward in using more of these over time, 
achieving greater results, and creating the wide range of jobs 
that are associated with implementing green infrastructure.
    Ms. Edwards. Ms. Giles?
    Ms. Giles. Well, I am very pleased to hear that your 
consent decree is working so well for your community, and that 
we were able to find a way to advance some of these innovative 
technologies.
    I would add that I hear the same thing from many 
communities. When we started out, maybe a little more 
challenging relationship, but evolved to a very collaborative 
relationship, where we are mutually trying to find solutions to 
these problems, and helping to create a pathway forward for 
these communities that provides them both certainty and the 
clean water that they are very much in favor of achieving.
    Ms. Edwards. Thank you. And then finally, Ms. Stoner, I 
wonder if you can tell me how the EPA plans to identify 
municipalities that could make the best use of an integrated 
plan approach, and whether these municipalities have already 
begun implementing some of the techniques and areas most in 
need of new strategies.
    Ms. Stoner. Yes. So we are working to come up with an 
approach, again, in discussions with many others. But part of 
it is that they have done some thinking about how to prioritize 
for their community, what the tradeoffs are, what the 
sequencing would be, what smart investments are.
    One thing we don't want to do is delay further improvement 
while we plan. So we are looking for communities who have done 
that planning to be some of our leaders, and to demonstrate for 
others how it can be done.
    That being said, we are open to talking to all about where 
they are in the process.
    Ms. Edwards. And what role do you think the Federal 
Government has in helping to develop the private sector to 
mature the technologies?
    Ms. Stoner. I think that we do have some innovation 
efforts, partnership efforts that we have underway that are led 
by our office of research and development office out in 
Cincinnati. And we are trying to work to help spur interest in 
investment in these new technologies.
    If I could quickly tell a story, I was up in the Three 
Rivers Conference in Pittsburgh a little over a year ago. And 
they had vendors outside the conference itself. And I went 
around and talked to all the vendors there. And there were 
probably 50, 75 vendors. And all except one--the one imported 
rubber products from overseas--every other vendor made their 
product in the USA. So those are all products that are 
innovative products that are water and wastewater investment 
products being made in the USA and implemented, serviced in the 
USA. That is creating jobs.
    Ms. Edwards. Thank you. And I look forward to seeing you 
tomorrow in Edmonston in our Green Street Project. Thank you.
    Ms. Stoner. I look forward to it, as well.
    Mr. Gibbs. Got just a couple more questions. You heard a 
lot in the previous panel my concerns, my questioning about the 
stormwater and sanitary water. In your October memorandum to 
your regional offices for achieving water quality through the 
integrated municipal planning and permitting, you placed a lot 
of emphasis on stormwater, in addition to the wastewater 
permitting.
    How does the EPA--how do you plan to integrate the 
stormwater and wastewater permitting process?
    Ms. Stoner. Well, that is what we spent yesterday over at 
NACWA talking about, how to do that, because they are often 
separate permits. So I think there are ways of doing it as a 
combined permit, as a watershed permit, maybe also using a 
memorandum of agreement or memorandum of understanding. There 
are other approaches. That is where we need to do some 
innovation on the permitting side.
    But we think we have the tools we need, we just need to 
figure out how to do it together.
    Mr. Gibbs. What is the status on any new stormwater 
regulations?
    Ms. Stoner. We are continuing to work on those. We are 
behind schedule.
    Mr. Gibbs. Do you have a time table?
    Ms. Stoner. Not one that I can share with you today. We are 
working hard on that. We consider them very important.
    And as I mentioned, part of the point of the stormwater 
regulations is to help communities figure out how to cost-
effectively address stormwater pollution. So it would be very 
beneficial to the communities we saw here today.
    Mr. Gibbs. Will you be supplying a report to Congress on 
the proposed stormwater regulations?
    Ms. Stoner. We will be submitting the report to Congress 
before we are proposing anything. Yes, Congressman.
    Mr. Gibbs. And we will have time to have a hearing if we 
need to, or to have feedback, back and forth?
    Ms. Stoner. I look forward to hearings on the issue with 
you, Mr. Chairman.
    Mr. Gibbs. OK, that is great. Just one last question. You 
heard a lot of discussion on the previous panel about doing 
maybe 15, 20 pilot projects, because there are over 700 
communities that have this issue. Are you open to developing a 
pilot plan to--with this integrated approach?
    Ms. Stoner. Yes, that is what I was talking about in terms 
of those who have already done a lot of thinking and planning. 
We are hoping those could be initial pilots for us, and others 
could learn from their successes.
    Mr. Gibbs. That is going to be laid out here in the near 
future?
    Ms. Stoner. Our strategy that we are working on now would 
identify how we would like to work with communities through 
pilot projects and other means, as well.
    Mr. Gibbs. Do you think we will have something moving 
forward by spring?
    Ms. Stoner. Yes.
    Mr. Gibbs. Great. I am done with my questions. Is there any 
more questions over here?
    I guess this will conclude our hearing. And thanks for 
coming.
    And one thing I do have to say in kind of a closing 
statement--I said it to the last panel, and--because this is 
kind of changing the whole paradigm of how we operate. And it 
is quite clear to me--and I hope it was to you, when you heard 
the last panel--where municipalities and States improve this 
infrastructure and move towards making progress in this area, 
in clean water.
    But if we don't do it right, they are going to lose 
resources. Because as you heard from the mayor from Omaha, 11 
businesses, substantial-sized businesses, that are looking to 
leave Omaha. And that is across the country. And if we layer so 
much red tape and additional cost, we won't achieve what my 
goal and your goal is. And so we have really got to be careful 
how we handle that, because the resources won't be there. And I 
think that is something we should always keep in the back of 
our minds, that we can't achieve enhanced environment if we add 
costs there to chase people away. And I think we always need to 
remember that.
    Ms. Stoner. That is why we are looking for cost-effective 
solutions.
    Mr. Gibbs. That is great to hear. And I look forward to 
working with you in the future.
    So that will conclude this hearing. And have a good day. 
Thank you.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
